<html>
<title> - THIRSTY FOR RESULTS: LESSONS LEARNED FROM THE DISTRICT OF COLUMBIA'S LEAD CONTAMINATION EXPERIENCE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 THIRSTY FOR RESULTS: LESSONS LEARNED FROM THE DISTRICT OF COLUMBIA'S 
                     LEAD CONTAMINATION EXPERIENCE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2004

                               __________

                           Serial No. 108-204

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-089                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2004.....................................     1
Statement of:
    Grumbles, Benjamin, Acting Assistant Administrator for Water, 
      U.S. EPA; Donald Welsh, Administrator, Region III, U.S. 
      EPA; Thomas P. Jacobus, general manager, Washington 
      Aqueduct, Baltimore District, U.S. Army Corps of Engineers; 
      and Jerry N. Johnson, general manager, District of Columbia 
      Water and Sewer Authority..................................     9
    Neukrug, Howard, director, office of watersheds, Philadelphia 
      Water Department, the American Water Works Association; 
      Angela Logomasini, director, risk and environmental policy, 
      Competitive Enterprise Institute; Scott Rubin, consultant 
      and public utilities expert; Paul Schwartz, national policy 
      coordinator, Clean Water Action; and Katherine Funk, 
      Parents for Nontoxic Alternatives..........................    73
Letters, statements, etc., submitted for the record by:
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Funk, Katherine, Parents for Nontoxic Alternatives, prepared 
      statement of...............................................   142
    Grumbles, Benjamin, Acting Assistant Administrator for Water, 
      U.S. EPA, prepared statement of............................    12
    Jacobus, Thomas P., general manager, Washington Aqueduct, 
      Baltimore District, U.S. Army Corps of Engineers, prepared 
      statement of...............................................    40
    Johnson, Jerry N., general manager, District of Columbia 
      Water and Sewer Authority, prepared statement of...........    47
    Logomasini, Angela, director, risk and environmental policy, 
      Competitive Enterprise Institute, prepared statement of....   103
    Neukrug, Howard, director, office of watersheds, Philadelphia 
      Water Department, the American Water Works Association, 
      prepared statement of......................................    76
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......     7
    Rubin, Scott, consultant and public utilities expert, 
      prepared statement of......................................   111
    Schwartz, Paul, national policy coordinator, Clean Water 
      Action, prepared statement of..............................   117
    Waxman, Hon. Henry A. Waxman, a Representative in Congress 
      from the State of California, prepared statement of........   155
    Welsh, Donald, Administrator, Region III, U.S. EPA, prepared 
      statement of...............................................    27

 
 THIRSTY FOR RESULTS: LESSONS LEARNED FROM THE DISTRICT OF COLUMBIA'S 
                     LEAD CONTAMINATION EXPERIENCE

                              ----------                              


                          FRIDAY, MAY 21, 2004

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Cummings, 
Van Hollen, and Norton.
    Staff present: David Marin, deputy staff director and 
director of communications; Keith Ausbrook, chief counsel; John 
Hunter, counsel; Robert Borden, counsel and parliamentarian; 
Drew Crockett, deputy director of communications; Teresa 
Austin, chief clerk; Brien Beattie, deputy clerk; Robert White, 
press secretary; Phil Barnett, minority staff director; Krista 
Boyd, Althea Gregory, and Rosalind Parker, minority counsels; 
Earley Green, minority chief clerk; Jean Gosa, minority 
assistant clerk; and Chris Hicks, counsel from Ms. Norton's 
staff.
    Chairman Tom Davis. Good morning.
    The Committee on Government Reform will come to order.
    Welcome to today's hearing entitled, ``Thirsty for Results: 
Lessons Learned from the District of Columbia's Lead 
Contamination Experience.''
    On March 5, 2004, the committee held a hearing to review 
the condition of lead contamination in the District of 
Columbia's water supply and examine Federal and local agencies' 
responsibilities for drinking water safety in D.C. and the 
surrounding jurisdictions. After the hearing, the committee 
requested additional information from the Environmental 
Protection Agency, the U.S. Army Corps of Engineers, Washington 
Aqueduct and the District of Columbia Water and Sewer Authority 
regarding specific actions taken by each agency to combat the 
elevated lead levels in the District's water system. These 
agencies have taken a number of steps to address this 
situation, including supplying water filters to affected 
District residents, additional testing of residences, schools 
and libraries, blood screening for affected children under 6 
and pregnant and nursing women, and also expanded public 
outreach.
    While each agency is taking additional steps to fix the 
problem, the committee will continue to consider how elevated 
lead levels in the District's drinking water could have been 
prevented and whether the current response adequately protects 
public health. There are still some unanswered questions. What 
caused the spike in lead levels in the D.C. area? Did the 
responsible agencies adequately consider research on the use of 
chloramines before introducing them into the water system? Is 
the lead testing protocol adequate? Is the current public 
information campaign effective? Has WASA complied with the 
EPA's request? Are those requests appropriate? Last, is there 
cause for more widespread concern in jurisdictions around the 
Nation?
    Congresswoman Eleanor Holmes Norton recently introduced 
H.R. 4268, the Lead Free Drinking Water Act of 2004, which 
would amend the Safe Drinking Water Act intended to ensure that 
the District of Columbia and States provide a safe and lead-
free supply of drinking water. The legislation attempts to 
address the concerns raised by the lead crisis in the Nation's 
Capital. This legislation would impose new responsibilities on 
the EPA and water utilities nationwide.
    The purpose of today's hearing is two-fold. First, we 
intend to address the current status of the lead problem in the 
District, its causes and the governmental response, including 
reformulation of water, lead service line replacements and 
communications with the public. Second, we want to focus on 
whether the current Safe Drinking Water Program is adequate to 
assure safe drinking water for the consuming public, both in 
the District of Columbia and across the Nation, or whether 
additional measures, either legislative or regulatory, are 
necessary to accomplish these objectives.
    I expect to explore whether the situation in the District 
of Columbia is indicative of water systems throughout the 
country or whether it is unique. That assessment will assist in 
determining whether the experience in the District justifies 
changes to the Safe Drinking Water Act. Part of this process 
necessarily includes an examination of the scope of the problem 
as suggested by the District's experience, the costs and 
benefits that additional requirements would impose on water 
systems across the country, and the possible tradeoffs between 
expenditures for lead-free drinking water and other programs to 
protect the public health, safety and welfare.
    We have a distinguished panel of witnesses before us. We 
have gathered major players and advocates who are well versed 
on the lead issue. I look forward to hearing their testimony 
and how we can move forward and assure that all residents in 
the capital region and across the country have safe drinking 
water. Our witnesses will discuss Federal regulations 
concerning the monitoring of lead levels and drinking water, 
the status of the District's drinking water lead levels and 
remediation effects, and their assessments of the need for 
changes in the current Federal regulations of lead in the 
Nation's drinking water supply.
    I would now recognize Ms. Norton for an opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.001
    
    [GRAPHIC] [TIFF OMITTED] T6089.002
    
    Ms. Norton. Thank you very much, Mr. Chairman.
    I very much appreciate the attention Chairman Davis has 
given to the lead contamination water crisis in the District 
and region, unhesitatingly agreeing to our first hearing in 
March as well as to this hearing following the introduction of 
a bill I have co-sponsored with Senator Jim Jeffords to address 
the issues.
    The city's residents, Mr. Chairman, I can convey to you 
have been particularly grateful for your oversight because two 
of the three agencies involved with our water are Federal 
agencies. It has brought some comfort to our residents to know 
that Congress, through your leadership, felt the city's water 
crisis and the health of its residents warranted congressional 
involvement.
    I have only brief remarks this morning because we have 
heard from some of these witnesses before and the EPA, WASA and 
the Washington Aqueduct have begun to take some of the 
necessary actions which might have forestalled a crisis had 
these measures been standard operating procedures. This 
morning's report of the effect of chlorine in significantly 
reducing lead in our drinking water is a case in point. As our 
last hearing made clear, the Aqueduct switched from chlorine to 
chloramines, apparently elevating lead contamination without 
conducting a corrosion control study. Astonishingly, the EPA 
regulations still do not require such a study.
    The bill Senator Jeffords and I introduced last month 
requires a corrosion control study within a year of any change 
in the chemicals used to treat drinking water. Nevertheless, I 
believe nothing is to be gained by rehashing the extensive 
evidence of this and similar deficiencies in the EPA 
regulations and WASA and Aqueduct practices. Our time is best 
served by trying to find a path toward remedy and correction 
today. Particularly now that the bill has been introduced, I am 
interested in learning from today's witnesses what actions 
Congress should take first to begin to be responsive to what 
all agree the District's experienced signals is the need for 
some changes.
    Our bill is drawing directly from the serious lead 
contamination crisis still underway in the District. By now, 
there is little question that similar problems exist in 
similarly situated water systems operating under the same 
regulations and enforcement methods used in the District. 
Because the D.C. crisis was both deep and wide and exposed so 
many problems, our bill follows suit.
    Senator Jeffords and I live in the real world of the Senate 
and the House and have no illusions about what may be possible. 
My goal now is to work with the EPA, WASA, the Aqueduct and 
this committee to make a good faith start on restoring 
confidence in the ability of the Federal Government and WASA to 
provide safe drinking water to the people of the United States 
and the District of Columbia. This hearing should be useful in 
deciding how to proceed. Our bill is geared far more toward 
rulemaking than prescription. It is the EPA that issued the 
current regulations in 1991 and it is the EPA that would engage 
in similar rulemaking under our bill. After nearly 15 years 
under the current rules and the problems that have been 
uncovered, it is time to review what we have learned from the 
D.C. crisis and from new developments in the basic science and 
to seek agreement on priorities for change.
    Again, I very much appreciate this hearing, Mr. Chairman, 
and I express my appreciation as well to all of today's 
witnesses.
    Mr. Chairman, may I also ask that the statement of Mr. 
Waxman, the ranking member of this committee, be entered into 
the record.
    Chairman Tom Davis. Without objection, the statement will 
be in the record and the Members can have 5 legislative days to 
submit opening statements for the record.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T6089.003

[GRAPHIC] [TIFF OMITTED] T6089.004

    Chairman Tom Davis. We also have written statements from 
D.C. Councilman Harold Brazil and Mike Keegan from the National 
Rural Water Association to be entered into the record.
    I want to recognize our first panel. We have the Honorable 
Benjamin Grumbles, Acting Assistant Administrator for Water, 
U.S. EPA; Mr. Donald Welsh, Administrator, Region III, U.S. 
EPA; Mr. Thomas P. Jacobus, general manager, Washington 
Aqueduct, Baltimore District, U.S. Army Corps of Engineers; and 
Jerry N. Johnson, general manager, District of Columbia Water 
and Sewer Authority.
    As I think you all know, it is the policy of the committee 
that all witnesses be sworn before testifying.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    We would like to keep your opening statements to 5 minutes. 
Your entire statements are in the record without objection. The 
questions will be based on the entire statement, but you are 
given 5 minutes to kind of put it together and sum up. Your 
light in front of you will be green when you start, it will be 
orange after 4 minutes and turn red at the end of 5 minutes.
    We appreciate all of you being with us and look forward to 
your testimony and being able to ask questions.
    Mr. Grumbles, we will start with you and move down the 
line. You have been here before. Thanks for coming back.

STATEMENTS OF BENJAMIN GRUMBLES, ACTING ASSISTANT ADMINISTRATOR 
 FOR WATER, U.S. EPA; DONALD WELSH, ADMINISTRATOR, REGION III, 
   U.S. EPA; THOMAS P. JACOBUS, GENERAL MANAGER, WASHINGTON 
AQUEDUCT, BALTIMORE DISTRICT, U.S. ARMY CORPS OF ENGINEERS; AND 
 JERRY N. JOHNSON, GENERAL MANAGER, DISTRICT OF COLUMBIA WATER 
                      AND SEWER AUTHORITY

    Mr. Grumbles. Thank you, Mr. Chairman. Thank you, 
Congresswoman Norton for putting together what looks to be a 
very balanced and important hearing.
    I am appearing with Don Welsh, Regional Administrator for 
Region III. What I would like to do is touch briefly upon the 
lessons learned and also I would say you have billed the 
hearing as lessons learned and I would say it should also be 
lessons learning. Clearly all of us are still learning as 
aggressively as we can trying to get to the bottom of the 
situation here in the District and importantly, reach 
conclusions about national implications and steps forward.
    The first thing I would like to say is that the EPA 
continues to place a very high priority and take extremely 
seriously lead in drinking water. This is an important threat 
and one that we believe merits the highest degree of attention. 
I also want to emphasize that I am not here to define the 
status quo or even to defend the rule that is 13 years old. I 
am here to tell you that we are looking at the situation with 
an open mind and look forward to working with you closely in 
giving a hard, honest look at the existing guidance as well as 
the regulations and make sure that lessons are learned not just 
at the Federal level but at all levels involved in protecting 
the Nation's drinking water.
    One of the important first steps that we took after the 
discovery of the incident in the District of Columbia was the 
formation of the Technical Expert Working Group and also to 
establish an independent peer review of that group recognizing 
how important it is and how critical the science, the 
chemistry, the corrosion and all the roles they play in this 
situation. We are currently working along those lines with the 
Technical Expert Working Group and the independent peer review 
panel.
    I would also like to briefly describe three of the things 
we are doing at the national level. The first is that we are 
aggressively pursuing a national review of compliance and 
enforcement of the 1991 lead and copper rule. I have written to 
all of the regions to work with the States to get as much data 
as we possibly can about the state of compliance with the lead 
and copper rule. The data we have indicates that the lead in 
drinking water is not a national problem, it is not a systemic, 
pervasive problem. It is a serious problem, a manageable 
problem in some areas of the country.
    The data we have gathered also indicates that since 2000, 
there are 22 systems serving populations greater than 50,000 
that have exceeded the action level. The most recent data of 
2003 indicates that eight of those systems have exceeded the 
action level. We should never diminish the importance of any 
one exceedence but it is also important to indicate that the 
data we have from the States is that this is not a pervasive 
national problem. This is a national opportunity to look very 
seriously at our existing guidance and regulations and learn 
lessons from the experience in the District of Columbia.
    One of the other things we are doing in addition to the 
national compliance review is to aggressively review existing 
guidance that the EPA has and the regulation and to gather 
lists of ideas to possibly revise or improve upon existing 
guidance and the regulation. We have held several expert 
workshops. We just recently held two in St. Louis earlier in 
the month and the first was on the simultaneous compliance 
which is a critically important issue. It is not easy to be a 
utility manager and continue to provide safe drinking water to 
the public. There are lots of balances, lots of important 
decisions to be made and simultaneous compliance. The expert 
workshop we had, we think is a very important step forward.
    The other one we held was on sampling and monitoring 
protocols, another important aspect of the whole experience in 
the District of Columbia, making sure we have accurate, timely 
and uniform protocols for monitoring to check the quality of 
the drinking water.
    Mr. Chairman, we plan to hold more workshops. We think now 
is the best time to have a vigorous and robust debate with the 
scientific community and the public and public water suppliers 
on ways to improve upon the existing guidance or possibly the 
regulation. We think these workshops are key in that. One of 
the workshops will involve lead in schools.
    That is the last point I want to make. We all recognize the 
importance of protecting school children and kids at day care 
facilities and that is why we are systematically reviewing the 
policies and programs of the States throughout the country to 
ensure that action levels are not exceeded in schools.
    The last point I would make, Mr. Chairman, I recognize my 
time has expired, but I may just make a point about the 
proposed legislation that Delegate Norton and Senator Jeffords 
have introduced. I recognize that a lot of thought has been put 
into this legislation. It is a very good road map for all of us 
to discuss, to review the various range of policy issues. I 
personally continue to believe that comprehensive national 
legislation at this point is premature but I would commend the 
drafters of the legislation for raising these many different 
issues and aspects. I think it is worthy of debate and 
discussion within the context of our existing guidance and our 
rulemaking. We look forward to that.
    The last point is in terms of lessons learned, I think the 
key lesson we are learning is the critical importance of 
communication on drinking water quality and lead in drinking 
water, accurate, timely, relevant and useful information is 
critically important and I think all of this discussion is 
going to help the country as a whole in being better prepared 
with potential lead and drinking water issues throughout the 
country.
    Thank you.
    [The prepared statement of Mr. Grumbles follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.005
    
    [GRAPHIC] [TIFF OMITTED] T6089.006
    
    [GRAPHIC] [TIFF OMITTED] T6089.007
    
    [GRAPHIC] [TIFF OMITTED] T6089.008
    
    [GRAPHIC] [TIFF OMITTED] T6089.009
    
    [GRAPHIC] [TIFF OMITTED] T6089.010
    
    [GRAPHIC] [TIFF OMITTED] T6089.011
    
    [GRAPHIC] [TIFF OMITTED] T6089.012
    
    [GRAPHIC] [TIFF OMITTED] T6089.013
    
    [GRAPHIC] [TIFF OMITTED] T6089.014
    
    [GRAPHIC] [TIFF OMITTED] T6089.015
    
    [GRAPHIC] [TIFF OMITTED] T6089.016
    
    Chairman Tom Davis. Thank you very much.
    Mr. Welsh.
    Mr. Welsh. Good morning. I am Don Welsh, Regional 
Administrator for Region III of the U.S. EPA. Thank you for the 
opportunity to appear before you today to comment on H.R. 4268, 
the Lead Free Drinking Water Act and to provide a full update 
on the important issue of lead in tap water of the D.C. 
residents and the steps the EPA and other agencies are taking 
to resolve the problem.
    Let me begin by updating the committee on the latest 
developments in the District of Columbia. There is no higher 
priority for my office than to continue to work with the city 
and other partners to protect those who live and work in the 
District and to identify and correct the cause of elevated lead 
in the water. Since I last appeared before this committee, 
significant progress has been made in both areas.
    Regarding actions to reduce the elevated lead levels, the 
EPA has authorized interim water treatment changes recommended 
by a Technical Expert Working Group. The partial system 
application of zinc orthophosphate, a corrosion inhibitor, will 
begin on or around June 1 in an area of northwest Washington. 
The anticipated timetable for full introduction of the proposed 
remedy has been accelerated to mid-July depending on the 
results of the more limited application.
    The working group's efforts are being reviewed at key 
points by an independent peer panel which includes four 
corrosion control experts from around the country. The EPA will 
continue to work with its partners to ensure that the public is 
well informed of the treatment changes and the temporary 
effects on water quality that may occur. Customers will be 
reminded that reduction in lead levels will not likely occur 
for at least 6 months after the treatment changes begin. 
Customers need to follow the flushing guidance and utilize 
water filters where supplied to ensure particularly that 
children under 6 years of age, pregnant women and nursing 
mothers are protected from elevated lead levels.
    The District of Columbia Water and Sewer Authority and the 
city government continue to move ahead on a series of actions 
directed by the EPA to address the immediate public health 
threat posed by lead in drinking water. We stand ready to use 
our enforcement authorities if necessary to compel further 
action and to ensure consumers are protected and properly 
informed.
    To date, WASA has delivered over 29,000 certified water 
filters and consumer instructions to occupants in homes with 
lead service lines as well as others. Water filters continue to 
be sent out automatically along with a referral to the 
Department of Health when tap water test results indicate 
elevated lead levels. Additional tap water sampling in 
buildings not served by lead service lines is continuing. A 
representative sampling of buildings citywide was required by 
the EPA to include schools, day care centers, businesses and 
other facilities. An additional round of sampling for 130 DC 
public schools was completed using an EPA-approved protocol. 
This sampling round involves close to 2,000 samples in areas of 
the schools where the vulnerable population of children under 
six and pregnant could be drinking. The city took immediate 
action to remove from service any water outlet testing higher 
than the school's action level of 20 ppb. WASA has committed to 
an accelerated schedule for physically replacing lead service 
lines in the District. The construction method for service line 
replacement has been modified to ensure that they do not pose 
an undue risk to health in the days or weeks following the 
replacement while ensuring compliance with the lead and copper 
regulations. WASA is expediting notification to customers of 
the results of water sampling at their residences committing to 
providing results in 30 days or less.
    The EPA is completing a detailed compliance audit of WASA's 
lead service line program, public education and compliance 
sampling actions. Based on preliminary results of our initial 
compliance audit, the EPA asserted instances in which 
requirements may not have been met. As part of the enforcement 
process, the EPA required WASA to provide information to the 
EPA responding to those findings. Nearly 6,000 pages of 
documents and voluminous electronic files are under review by 
the EPA as part of our compliance audit. Once we have completed 
our review, we will make a final determination as to whether 
violations have occurred and we will take appropriate action 
authorized under the Safe Drinking Water Act.
    In a separate initiative, an internal EPA team completed 
its review of WASA's prior education and outreach efforts. The 
report identified a number of steps WASA can take to achieve 
more effective public education and outreach regarding lead and 
drinking water. In addition to following mandatory requirements 
and making use of extensive EPA guidance, the report recommends 
that WASA use consultants to assist in assessing the audience 
to be reached, securing feedback on its efforts and in making 
recommendations for design and content of materials as well as 
delivery methods.
    Major issues identified by the reviewers were the lack of a 
sense of urgency in outreach efforts, failure to adequately 
convey information to the intended audience, insufficient 
opportunity for involvement by the public in the development of 
a communication strategy and lack of tracking measures to 
determine the success of outreach activities. The 
recommendations were designed as key input to WASA's continuing 
efforts to plan and carry out enhancements to drinking water 
education efforts both for regulatory compliance and also 
beyond compliance efforts.
    The report also includes recommendations for the EPA Region 
III to improve our oversight of WASA's public education 
program. We have revised our standard operating procedures in 
part to assure that shortcomings in public outreach and 
identification are identified earlier and corrected and that 
proper expertise in risk communication is utilized in the 
process.
    Other changes in procedure will ensure that no fewer than 
four EPA Drinking Water staff members, two of them managers, 
see each compliance report filed by WASA and the Washington 
Aqueduct. In addition to our collaborative efforts with the 
city, the EPA has taken a number of actions to provide 
information to residents and others on the issue of lead in the 
District's drinking water. These actions include a new program, 
Lead Safe D.C., to bring lead education information, home 
visits and blood level testing to District neighborhoods. 
Regular updates of our Web site, telephone hotline information, 
dispatch of community outreach specialists to the District, 
radio outreach in English and in Spanish, participation in 10 
public meetings and regular contact with the Coalition of 
Environmental and Consumer Groups.
    On the issue of primacy for drinking water responsibility 
and enforcement in the District of Columbia, the intent of the 
Safe Drinking Water Act is for the States, and the District is 
included within that definition, to have jurisdiction over the 
program. If the District seeks such status, we would entertain 
an application and work with the District to consider the 
issues involved.
    Working closely with the District of Columbia, our public 
service partners and concerned citizens, we will continue to 
aggressively act to protect residents and resolve the lead 
problem. We are taking action to hasten the day when the 
citizens of the District of Columbia can once again be 
confident in the safety of their drinking water. Thank you for 
the opportunity to present this information and I look forward 
to your questions.
    [The prepared statement of Mr. Welsh follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.017
    
    [GRAPHIC] [TIFF OMITTED] T6089.018
    
    [GRAPHIC] [TIFF OMITTED] T6089.019
    
    [GRAPHIC] [TIFF OMITTED] T6089.020
    
    [GRAPHIC] [TIFF OMITTED] T6089.021
    
    [GRAPHIC] [TIFF OMITTED] T6089.022
    
    [GRAPHIC] [TIFF OMITTED] T6089.023
    
    [GRAPHIC] [TIFF OMITTED] T6089.024
    
    [GRAPHIC] [TIFF OMITTED] T6089.025
    
    [GRAPHIC] [TIFF OMITTED] T6089.026
    
    [GRAPHIC] [TIFF OMITTED] T6089.027
    
    [GRAPHIC] [TIFF OMITTED] T6089.028
    
    Chairman Tom Davis. Thank you.
    Mr. Jacobus.
    Mr. Jacobus. Good morning, Chairman Davis and members of 
the committee.
    I am Tom Jacobus, general manager, Washington Aqueduct. We 
appreciate the opportunity to return and update the committee 
on the actions we have taken to reduce the elevated 
concentrations of lead in the drinking water found in some 
homes in the District of Columbia.
    Since February 2, 2004, our highest priority has been to 
reevaluate the corrosion control treatment in use and to 
develop a treatment modification to make the water less 
corrosive. We are presently installing equipment that will be 
used to modify the corrosion control treatment. As Mr. Welsh 
just said, a partial system application is scheduled to begin 
on June 1 in a small portion of the District of Columbia's 
service area. Later this summer, we will begin a full system 
application that will include the remainder of the District of 
Columbia and the Arlington County and the city of Falls Church 
distribution systems in Virginia.
    We are approaching it in two steps to be able to carefully 
control and evaluate the initial application to ensure that the 
program dose of the inhibitor we are going to use, the zinc 
orthophosphate, does not generate any unexpected secondary 
effects. One known possible effect of the application of the 
corrosion inhibitor may be the localized release of rust from 
iron pipes. This would result in discolored water delivered to 
the customer on a temporary basis but it would be short term 
and could be managed by flushing.
    When arriving at this treatment change, we have had access 
to the Nation's very best scientific and technical talent in 
this field. We appreciate the resources the Environmental 
Protection Agency has expended to assist not only us but also 
to look at the larger aspects of this issue. While the level of 
activity certain has been higher than normal, we have operated 
within the current program established by Congress in the Safe 
Drinking Water Act and implemented by the Environmental 
Protection Agency. I believe the program has worked well and 
that each of us has had the opportunity to collaborate 
effectively on both the nature of the problem and its solution 
while maintaining our independent responsibilities.
    The current regulations and relationships have served us 
well in addressing corrective actions to modify our optimal 
corrosion control treatment. I believe the current business 
arrangement whereby Washington Aqueduct is the wholesale 
provider to the District of Columbia Water and Sewer Authority, 
Arlington County and the city of Falls Church is sound. We work 
effectively with Region 3 of the Environmental Protection 
Agency as the primary agency responsible for drinking water and 
we have effective contact with agencies within the District of 
Columbia Government, including the District's Department of 
Health.
    This concludes my testimony. I will be happy to respond to 
any questions.
    [The prepared statement of Mr. Jacobus follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.029
    
    [GRAPHIC] [TIFF OMITTED] T6089.030
    
    [GRAPHIC] [TIFF OMITTED] T6089.031
    
    [GRAPHIC] [TIFF OMITTED] T6089.032
    
    Chairman Tom Davis. Thank you very much.
    Mr. Johnson.
    Mr. Johnson. Good morning, Mr. Chairman and members of the 
committee.
    I am Jerry Johnson, general manager of the District of 
Columbia Water and Sewer Authority. I am pleased to represent 
the Authority before the committee this morning.
    As you know, the District of Columbia and the Water and 
Sewer Authority have been the focus of great attention in the 
past few weeks. We appreciate this new opportunity to appear 
before the committee to discuss these issues and explain what 
has been happening and to talk about what we have learned in 
response to your questions.
    The Authority continues to work with the EPA on our 
obligations under the Safe Drinking Water Act and the lead and 
copper rule including the recent submission of an updated 
action plan. The Authority is continuing a water sampling and 
testing program and we are distributing filters to targeted 
residents and we continue to support the District of Columbia's 
Health Department, and we have contacted each one of the 
households by mail that is believed to have a lead service line 
or does not have a record of service pipe type material. Each 
household has been strongly encouraged to participate in the 
leading sampling program.
    We delivered water filter and replacement cartridges to 
every resident identified as having lead service lines and out 
of an abundance of caution, any household that participates in 
the testing program regardless of pipe material type is 
receiving a filter and replacement cartridges if they test over 
15 ppb.
    WASA is moving forward with its lead line replacement 
program and has already replaced about 800 service lines in 
public space this year. We will physically replace over 1,800 
lead service pipes in public space and the board of directors 
for the Authority is proposing to totally eliminate lead 
service lines in public space by 2010. WASA has engaged a team 
of experts from George Washington University School of Public 
Health, including individuals with expertise in communication, 
epidemiology and pediatric health. The Lead Service Hotline has 
responded to 54,331 customer calls and 6,538 e-mails since 
February 4 and processed 23,200 test kits in response to these 
calls.
    With respect to properties that are larger than single 
family households, which is a question that was raised, WASA's 
best information is that these large properties are served by 
pipes that exceed 2 inches in diameter and usually are not made 
of lead. However, we have proposed and the EPA has approved a 
test plan to test these assumptions. Technical experts in the 
working group have come upon the use of zinc orthophosphate as 
mentioned by two previous speakers, and I will not go into that 
discussion. We have also reviewed some of the national 
standards with the Environmental Protection Agency's 
regulations. One of the most important contributions I think 
the Authority can make in this discussion is to emphasize the 
enormous value in collecting and sharing accurate information, 
ensuring that the public has confidence in the water supply is 
of paramount concern, and we share the concern and are 
committed to that goal. The importance of informed judgment and 
considered action by public water systems and our regulators 
and the public health authorities is at the heart of building 
confidence and we cannot overemphasize that.
    As of Friday, May 7, the Health Department performed 5,291 
blood level screenings, blood lead tests, including 1,924 from 
the target population. Of those, 37 children under 6 had 
elevated blood levels and 13 lived in homes with lead service 
lines, 24 did not. All children of nursing mothers with 
elevated blood levels lived in an environment where other 
significant sources of lead were present such as lead dust or 
lead paint. In fact, environmental assessments of those homes 
has shown lead dust in soil levels above the EPA and HUD 
guidelines.
    With respect to the specific experience as a distributor of 
drinking water, we continue to learn and we put those learning 
experiences to use every day for our customers. We have 
undertaken two series of water samples in public schools and 
each of those has shown low to undetectable levels in the 
systems and we compared favorably to the surrounding 
jurisdictions. As recently as yesterday, a preliminary analysis 
of WASA's customer water samples drawn between April 2-8 appear 
to indicate that chloramine as a disinfectant used in drinking 
water to guard against bacteria, viruses and other diseases 
causing agents may have changed the water composition causing 
increased levels in lead and drinking water received by some 
District residents.
    We detected the surprising change during the 6-week period 
in the spring of the year when the Washington Aqueduct switched 
from chloramines to free chlorine as a primary disinfectant of 
the routine annual treatment program. This possibility is the 
subject of much speculation and the idea that things like 
drought conditions could be contributing factors at one point 
but with the world of data we have collected, we may have 
identified the primary factor responsible for causing elevated 
lead levels in homes of persons who have lead service pipes. It 
is early yet, but our analysis of this data indicates that the 
change in chloramines in disinfectant in the water supply may 
have caused the water to become more corrosive.
    We have shared this data with the Washington Aqueduct, the 
EPA and our partners in Virginia who are also Washington 
Aqueduct customers and strongly urge expedited review of this 
data to see what it means for the water distribution system. 
With this learning curve in mind, Mr. Chairman, we strongly 
encourage interested Members of Congress and the EPA to 
evaluate the lead and copper rule, with a careful eye toward 
the intent and a clear vision toward improving the Nation's 
public water system. H.R. 4268 provides one opportunity to help 
focus on such discussion and involve a broad range of 
stakeholders.
    With respect to our relationship with the Washington 
Aqueduct, it has proven a very strong partnership in the effort 
to ensure residents have access to clean, safe drinking water. 
It is a relationship that has proven satisfactory to WASA's 
customers. It has, however, sometimes proven awkward with 
respect to the relationship with the Environmental Protection 
Agency and other Federal agencies. Your office, Congresswoman 
Norton, has interacted with both OMB and us to help address 
some of the issues with requirements related to financing. The 
question of operational responsibility and ownership was 
explored just a few years ago and perhaps the time has arrived 
for us to take a second look at that particular issue. There is 
something to be said for a single entity controlling both 
production and distribution in this environment especially 
since customers and many others hold WASA, the distributor, 
accountable for all aspects of the provision of clean drinking 
water.
    In closing, Mr. Chairman, your invitation to testify asked 
who should be responsible for the District's drinking water, 
enforcing compliance and Federal standards? The Safe Drinking 
Water Act contemplates government closest to the operators of 
public water systems is best equipped to monitor and enforce 
the provisions of the law. We share that view and I believe the 
issue of primacy should certainly be explored more fully.
    Thank you for this opportunity to testify. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.033
    
    [GRAPHIC] [TIFF OMITTED] T6089.034
    
    [GRAPHIC] [TIFF OMITTED] T6089.035
    
    [GRAPHIC] [TIFF OMITTED] T6089.036
    
    [GRAPHIC] [TIFF OMITTED] T6089.037
    
    [GRAPHIC] [TIFF OMITTED] T6089.038
    
    [GRAPHIC] [TIFF OMITTED] T6089.039
    
    [GRAPHIC] [TIFF OMITTED] T6089.040
    
    [GRAPHIC] [TIFF OMITTED] T6089.041
    
    [GRAPHIC] [TIFF OMITTED] T6089.042
    
    Chairman Tom Davis. Thank you all very much.
    I read in the Post this morning, page B5, an article by 
DeVira Cohen, about the lead in D.C. water, after a chlorine 
flush. When did WASA flush?
    Mr. Johnson. The flushing took place in early April through 
May 8th.
    Chairman Davis. When did you have these results?
    Mr. Johnson. We received the results earlier this week, Mr. 
Chairman.
    Chairman Tom Davis. The committee heard about it early this 
morning when we picked up the paper.
    Mr. Johnson. I apologize. We were trying to get press 
releases and information out to everyone. We just completed 
compilation of that data on yesterday morning prior to holding 
the press conference and briefing. More complete data and all 
the raw information is contained in the attachments to the 
testimony for today.
    Chairman Tom Davis. Let me ask you this. Do you think the 
city's elevated lead levels resulted from a structural problem 
with the testing, reporting and communications regime or do you 
think it was simply poor implementation of the existing Safe 
Drinking Water regulations?
    Mr. Johnson. I am sorry, sir. Would you mind?
    Chairman Tom Davis. What do you think the elevated levels 
resulted from? Is this a structural problem in the system? Was 
it the fact that we were using the wrong chemicals? In 
retrospect, could you try to tell me what you think the problem 
was?
    Mr. Johnson. I would preface my comments, Mr. Chairman, by 
saying that I am going to be somewhat speculative. We have this 
information we recently received from the testing that was done 
during the period there was pre-chlorine added to the system. 
We found in the first 3 weeks that we had lower levels, the 
lead levels had actually plummeted in some cases. We went back 
and looked at the final 3 weeks when we are assured that the 
system had total chlorine and we flushed out all the 
chloramines and the numbers had gone down even further. We 
think that data certainly deserves further evaluation and a 
closer look at the experts before drawing any final 
conclusions, but it would certainly point in the direction of 
the chlorine having a positive effect on the leaching of lead 
in the service lines which would then suggest perhaps the use 
of chloramines would have had some impact on the leaching of 
lead and the elevated blood levels.
    Chairman Tom Davis. WASA took a number of steps to address 
the lead levels in the District's water supply, many the result 
of being ordered to do so by the EPA. Some of them go beyond 
the specific requirements of the EPA Safe Drinking Water 
Program, as I understand it. Do you think all these steps are 
necessary to reduce the level of lead in the water supply and 
to better inform the public?
    Mr. Johnson. Here again, I guess I would preface my 
comments by saying I believe many of the efforts that were 
undertaken were more collaborative than directive efforts in 
working with the Environmental Protection Agency to accomplish 
these and I don't quarrel with any of the activities we have 
undertaken to date. Some were taken out of an abundance of 
caution, others because of specifically addressing very 
targeted issues.
    Chairman Tom Davis. How effective do you think the lead 
service line replacement program is going to be in reducing 
lead in the system?
    Mr. Johnson. I continue to have questions with regard to 
the effectiveness of replacing lead service lines if we are 
only doing the replacement in public space. The rule as it is 
currently structured requires that once we have done that, we 
have met the requirements of the EPA standard. If we are still 
leaving a portion of lead service lines for the customer to 
have to contend with, then we still have a potential problem. 
If we optimize the treatment process, if we have coated those 
pipes appropriately and there is no longer lead leaching, 
perhaps we will have a timing factor before something like this 
happens again. As you know, this is not the first time the 
District of Columbia has experienced this problem and we 
obviously have to monitor it very closely to ensure that it 
does not happen again, but the potential is there as long as 
there is a portion of lead service lines serving any customer's 
home.
    Chairman Tom Davis. Mr. Welsh and Mr. Jacobus, let me focus 
on the testing protocols for just a moment and clarify whether 
the lead problem could have been identified in the summer of 
2001. According to testimony by Seima Bott, the WASA water 
quality manager who was responsible for preparing lead test 
sample reports for the period July 1, 2000 to June 30, 2001, 
she had five samples that exceed a lead action level for that 
period that she did not submit to the EPA for the purpose of 
regulatory compliance. She testified those were backup samples 
in case she didn't have 50 samples for regulatory compliance 
purposes. If these five had been reported in addition to the 
four reported for that period, the District report would have 
exceeded the lead action level for the 90th percentile in the 
summer of 2001 instead of a year later when lead levels might 
have increased significantly.
    While the EPA has responded to a question from the 
committee that it has no record of the invalidation of any 
samples for that period, my question for the EPA and WASA is 
whether the decision not to use these samples is consistent 
with testing and reporting protocol?
    Mr. Welsh. Mr. Chairman, it is my understanding that the 
EPA should receive any of the data that is developed, any of 
the samples should be reported to the EPA. As mentioned, we 
discussed this before. We reviewed our records to see if there 
was any indication the procedure in the lead and copper rule 
for invalidation of samples had been used and it had not been. 
So it is my understanding that any data that is collected does 
need to be reported to the EPA.
    Chairman Tom Davis. And you don't know why those particular 
samples weren't put in the selection process?
    Mr. Welsh. That is correct. We were concerned about that 
issue and have been investigating that, including a request for 
information and an information request letter to WASA and the 
6,000 pages of documents and some of the electronic files I 
mentioned earlier, some of that was in reference to that 
particular question and we are continuing to investigate that 
to see exactly what went on there.
    Chairman Tom Davis. Let me ask WASA, what do you know about 
that?
    Mr. Johnson. I only know what was in Ms. Bott's testimony 
with respect to that. It was not an issue that rose to a 
management level in the organization to be addressed. We had 
understood from discussions with Ms. Bott that there had been 
consultation with the EPA. Whether it was formal or not, I am 
not sure but she indicates that there had been consultation 
with the EPA through that process.
    Chairman Tom Davis. Mr. Grumbles, in the next panel, we 
have testimony by a witness that the current Federal regulation 
of lead in water supplies is actuality is a one-size fits all 
approach. It is disproportionately costly for smaller water 
systems. Do you think that is accurate?
    Mr. Grumbles. Mr. Chairman, I think the current rule when 
it was written very much intended to try to reflect that not 
all systems are of the same size, they have different 
affordability factors and different local conditions, so I 
would say that with any Safe Drinking Water Act regulation, 
there is the potential for some smaller rural areas to have 
difficulties meeting the requirements, the lead and copper rule 
does attempt to take into account special considerations and 
that it has the flexibility to do that.
    Chairman Tom Davis. You are defending the current reg. You 
think it gives enough flexibility?
    Mr. Grumbles. On the subject of small versus large, I think 
that is an area that people have brought to my attention that 
there needs to be greater flexibility. I would say there are 
other aspects of the rule that people want to have a different 
approach, different layers of sophistication and stratification 
that we are pleased to look at.
    Chairman Tom Davis. Do you think the EPA should be more 
actively involved in individual water systems' decisions 
regarding chloracivity control? Do you have any thought on 
that?
    Mr. Grumbles. We have a role to play. There are two roles 
we play. One is to try to help advance the national research 
front on corrosivity. I think we recognize the experience we 
are having in the District, we need to be at the cutting edge 
in research into how to control and maximize corrosivity 
control and to improve upon it.
    In terms of the decisions on a system by system basis and 
the way the regs currently work is that it is the primacy 
agency that is more involved than the EPA.
    Chairman Tom Davis. Do you think the EPA ought to be in 
that decision matrix when local decisions are made on that?
    Mr. Grumbles. I would say in some degree, yes. I think it 
is important, our overall role in ensuring compliance under the 
Safe Drinking Water Act, but I am a little hesitant because I 
think one of the reasons the Safe Drinking Water Act has been 
successful over the years and that the lead and copper rule has 
been successful since 1991 is that it recognizes that the 
States, primarily the ones involved in carrying out and 
implementing the regs and working with the utilities.
    Chairman Tom Davis. Has the EPA found that other 
jurisdictions with elevated lead levels failed to communicate 
effectively like WASA? Is this a common problem or is this the 
worse you have seen?
    Mr. Grumbles. From what we know, I would not say it is a 
common problem but it is extremely important to ensure that 
communities are as proactive and aggressive and robust as 
possible and continue to provide communities with some 
guidelines to really reach out and have the most targeted and 
proactive communications possible to comply with the lead and 
drinking water rules. I think that is one of the key lessons to 
be learned or if there is a silver lining here, it is if other 
communities are not proactive, we can find ourselves in 
situations where the public doesn't learn as soon as they 
should. I don't have any indication it is a problem, the 
failure to adequately communicate in other cities.
    Chairman Tom Davis. Let me ask another question on the 
question of cost and benefits of lead line replacement 
programs. I guess I can ask you generally what you think about 
that. It is my understanding the city of Cincinnati replaced 
all of its lead service lines at enormous cost and it didn't 
significantly reduce the levels of lead in the water. Do you 
know anything about that or if anyone else knows about that, we 
would be happy to hear your comments.
    Mr. Grumbles. I am not personally familiar with Cincinnati, 
I know there are some communities, I understand Madison, WI is 
going forward with the lead service line full replacement 
approach. It will be interesting to see what the results are.
    Chairman Tom Davis. It is expensive?
    Mr. Grumbles. It is expensive.
    Chairman Tom Davis. I think, Mr. Johnson, you alluded to 
that a little bit, didn't you?
    Mr. Johnson. Yes, sir.
    Chairman Tom Davis. Because you are not getting all the 
lines, but just the public lines?
    Mr. Johnson. That is correct, sir.
    Chairman Tom Davis. You think a lot of the problem is in 
the private lines?
    Mr. Johnson. I think if it is a problem with the lead 
service line, it is the entire lead service line and replacing 
a piece of it doesn't fix the problem.
    Mr. Grumbles. I would say that the way the current rule is 
structured, the full lead service line replacement is viewed as 
the last resort after you go through the other procedures. One 
of the key lessons we are learning here in the District is the 
critical importance of the chemistry involved in the water and 
trying to figure out what is causing the corrosion. I think 
everyone agrees that if money weren't the issue or time weren't 
an issue, you would want to eventually remove lead service 
lines. The way the current rule is structured and I think the 
cities across the country have been implementing it is as you 
go through the maximizing of corrosion control, you monitor for 
the action levels and if you are in the 90th percentile 
exceedence, then you are required to engage in that process. It 
is a very costly proposition but there are communities doing 
it.
    Chairman Tom Davis. Let me ask this. Is anybody prepared to 
say the switch to a different disinfectant in 2002 was the 
major cause for the spikes? That is what the Post headline 
implies today. I am not saying it is the only cause.
    Mr. Johnson. I don't believe, Mr. Chairman, that today with 
the information we have that we can definitively say that. That 
is why having recently obtained this information that certainly 
points in that direction, we would urge an expeditious and 
immediate review by the expert panel of the EPA and others to 
make that final determination so that we have some future 
direction and know where we are going with respect to that.
    Chairman Tom Davis. Does everyone agree with that?
    Mr. Jacobus. I would say, sir, this information is very 
useful to helping us understand. It may be that the chloramine 
is not the corrosive agent. It may be that the chlorine, the 
free chlorine acts as an inhibitor. We weren't looking for the 
chlorine to act as an inhibitor because we were using pH 
control. The reason we switched from chlorine to chloramine was 
for this concept of simultaneous compliance. So if it weren't 
for the generation of disinfectant byproducts which are also 
regulated by the EPA and have a health connection, we would 
switch to free chlorine today to get the immediate apparent 
inhibitor effects of the chlorine but because we are trying to 
do two things at once, we don't think that is prudent. What we 
do know is that since we have not been adding the follow-on 
chemical, the corrosion inhibitor, that is designed to be an 
inhibitor, zinc orthophosphate or some kind of phosphate, when 
we do add the orthophosphate we expect that it will act as an 
inhibitor and protect the pipes from the water containing the 
chloramines. Our challenge now is to do it in a way that is as 
quick as possible with the results that the lowest 
concentrations of lead and at the same time keep the 
disinfection byproducts low.
    We accept the data from WASA, we were part of this working 
group and we want to use it in an intelligent and responsible 
and very quick way. The EPA is working with us specifically 
Region III, and we hope to use it and be able to report to the 
public with the application of the orthophosphate and what we 
have learned from the chlorine good results soon.
    Chairman Tom Davis. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    It is important to understand two points about the backdrop 
of this hearing and this entire crisis. I want to thank the EPA 
for the oversight you are now giving to WASA. It does appear to 
follow the kind of regimen one might expect. The backdrop of 
this crisis is that the EPA was the State agency as well as the 
EPA for the District of Columbia. Therefore, it is very hard 
for the committee to look at the EPA kind of after the fact 
since as the State and Federal agency it is quite astonishing 
that WASA got as far as it did.
    That is one backdrop that we are looking at, an EPA 
assigned by the Congress of the United States to play a role 
that it does not play anywhere else except in the State of 
Wyoming. That has made the District of Columbia and the 
residents very uneasy that it wasn't at the ``State level,'' 
wasn't ``by the EPA as the Federal regulator.'' The other 
backdrop to keep in mind is cost. We are quite aware that every 
single issue here is played against a backdrop of potentially 
enormous costs. As the Congresswoman for the District of 
Columbia, I know that most of those costs will be borne by 
ratepayers. WASA went for 10 years with no increases to 
ratepayers. That was before Mr. Johnson got there and before 
the agency was revitalized but anybody who thinks that was a 
favor to the District of Columbia residents I think doesn't 
understand that people are willing to pay for a service if the 
service comes at reasonable rates.
    I appreciate, Mr. Grumbles, that you understand that our 
bill, I think you called it a kind of road map, was addressed 
to the overall issue. I indicated in my opening remarks that we 
did not anticipate that the Congress would do a major overhaul 
of the Clean Water Act this session. We know that cost is 
always a factor and that any ultimate rule or any ultimate 
legislation has to live in the real world of cost as well as 
benefit.
    I do want to say, and Mr. Chairman, I want to ask for your 
help here because Mr. Johnson raised a very important issue 
that goes to cost, a cost that the Federal Government 
inadvertently puts on the ratepayers. When WASA and Mr. Johnson 
go to do capital improvements because the agency involved is 
the Aqueduct and it is a Federal entity and because of the 
Federal rules involving how the Federal Government must pay 
itself for capital improvements, Mr. Johnson has to put all the 
money up front and can't use a letter of credit to do capital 
improvements the way any other jurisdiction in the United 
States always does it. It obviously cost the ratepayers more 
because he has to gather his money and take it and give it. Mr. 
Chairman, one of the reasons I am going to ask for your help is 
simply to get this exception that allows WASA to use a letter 
of intent, correct me if I am wrong.
    Mr. Johnson. That is correct.
    Ms. Norton. A letter of intent. He has the money, he has to 
show he has the money but he wouldn't have to put up the money, 
stop earning interest on the money and he could do as they do 
in Maryland, Virginia and everywhere else, if we were exempt 
from this Federal rule which is being used for essentially a 
local water delivery system.
    I think if the chairman and I could work perhaps with the 
appropriators and get the right language in the appropriations 
bill, I think Mr. Frelinghuysen would be quite willing.
    Chairman Tom Davis. But I would really like to see WASA let 
us know about some of these things that are going on instead of 
having to read them in the paper when you get test results and 
we have a hearing the next day, it would create I think a 
better sense of working together on this issue. Do you 
understand what I am saying?
    Mr. Johnson. I understand that, Mr. Chairman.
    Chairman Tom Davis. It helps me to think we are in this 
thing together as opposed to everybody running out and doing 
their own thing. I am frankly a little disappointed when we 
could have had that data a day before and prepared it into the 
hearing record and been more fully prepared for it.
    Mr. Johnson. I certainly understand your concern, Mr. 
Chairman, and certainly we will be mindful of that in the 
future. As we were compiling data yesterday morning and trying 
to think of all the things we had to do to get that processed 
and get it out to ensure that we were doing a better job of 
communicating with our customers, we did have that as an 
oversight and for that, I apologize.
    Ms. Norton. Senator Jeffords and I wrote a bill only after 
Chairman Davis, Ranking Member Waxman and I on March 17, 2004 
sent a letter to the EPA asking that the EPA look at what 
appeared to be serious flaws in the current rules. We asked 
that you reopen the lead and copper rule. You have to 
understand that backdrop at well. Nobody has reopened the lead 
and copper rule and that is part of the backdrop of our own 
bill.
    I would like to ask a preliminary question. When the 
decision was made to switch from chlorine to chloramines, who 
made that decision, who was at the table, who made the decision 
to switch, who was involved, who participated in that decision?
    Mr. Jacobus. We are always looking at regulations that are 
going to be effective a date certain in the future. We knew the 
disinfection byproduct rule was going to change and we knew if 
we continued to operate free chlorine as a disinfectant, we 
would be in violation of the disinfection byproduct rule. The 
rule eventually became effective in 2001 and we began the 
planning the process and went through a typical evaluation 
using consultants and industry practices.
    Ms. Norton. Did you consult at all with WASA or the EPA?
    Mr. Jacobus. Yes. We initially looked at alternatives that 
would meet these requirements and then we brought our customers 
who were the complete funding operation so they are part of our 
technical, advisory and wholesale customer board, brought them 
into the decisionmaking process. The EPA was involved through 
Region III, knowing that we were about to make a technical 
change. We had to demonstrate a disinfection profiling 
requirement to make sure this process change would in fact meet 
the new disinfection requirements to provide that safety. What 
was not specifically coordinated between the EPA and Washington 
Aqueduct was a direct consultation over the concept of 
simultaneous compliance between the lead and cooper rule and 
the disinfection byproduct rule.
    Using the guidance in the simultaneous compliance manual, 
we did look at the possible corrosive effects via pH change due 
to a bacterial nitrification situation, a chemistry change in 
the water, but we did not look at a direct corrosive effect. As 
is well known now, we did not conduct pipe loop studies or do 
any specific experimentation on the effects of chloramines on 
lead. Certainly in retrospect, that would have been a good 
idea.
    Ms. Norton. But of course you weren't required to do that? 
Let me fully understand how the process worked. Mr. Johnson, 
were you in on this process at all?
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. You were consulted about the change from 
chlorine to chloramines?
    Mr. Johnson. Yes, we were very engaged as was the District 
of Columbia Health Department as we looked at the change but it 
was intended to address one specific concern having to do with 
the byproducts rule, the triolamethanes and I think where we 
may have had a shortcoming here was just the lack of any body 
of research. If we are going to start to talk about where we 
are going in the future, research into those issues of taking 
one action not address one particular problem and not having a 
very clear understanding of what effect that action may have on 
something else is something that certainly needs to be looked 
at.
    Ms. Norton. You were not in the position to do that 
research. Mr. Jacobus was not required to do that research. Mr. 
Grumbles? Perhaps Mr. Welsh.
    In retrospect, would it not have been wiser to have a 
corrosion control study done in advance of the change from 
chlorine to chloramines?
    Mr. Welsh. My understanding of the situation is that the 
EPA Region III did consult with the Washington Aqueduct at the 
time the change was made for compliance with the disinfection 
byproduct rule. The EPA doesn't require that they use 
chloramines. It requires the jurisdiction to meet the 
disinfection byproduct rule.
    Ms. Norton. The operative words are corrosion control 
study. I realize there was consultation and I appreciate there 
was consultation and nobody acted without talking to one 
another, but the question here is before a water system 
undertakes to change the chemicals used in the water, given the 
different kinds of lines that send water to peoples' homes, 
shouldn't there be a corrosion control study done in light of 
the experience we have had in the District of Columbia?
    Mr. Welsh. I think corrosion control studies and analysis 
when a treatment change is being made is critically important. 
Your legislation, I believe, requires a report on the corrosion 
control within a year after a treatment change is made.
    Ms. Norton. You notice I let you use it in my bill for a 
year, test it and only then rather than say don't do it to 
begin with. Do you think that is a preferable approach to a 
study ahead of time?
    Mr. Welsh. Again, an important factor here is the existing 
rule. The existing rule does require that when there is a 
treatment change made that the analysis on corrosion control be 
done within 60 days after the treatment change is made. That is 
in the current rule.
    Ms. Norton. Did you do that?
    Mr. Welsh. In the District, I am not sure what the facts 
were.
    Ms. Norton. I am sure because you are just finding out. If 
you did something approaching a corrosion control study within 
60 days and Mr. Davis just read in the paper this morning that 
lead leaches into water because of the switch to chloramines, I 
am sure what was done after 60 days was not a corrosion control 
study. That is what I asked, about a corrosion control study. I 
don't care if it is a year as the legislation says or if you do 
in advance or in 60 days.
    Mr. Welsh. I think the sooner the better. One of the 
reasons the 60 day figure jumps out to me is it gives you 
information, gives the primacy agency information.
    Ms. Norton. Did you have that information, Mr. Grumbles, 
did you get any information within 60 days?
    Mr. Grumbles. It is my understanding that what we looked 
at, in anticipating that a change in treatment might have 
affected the corrosion, the chemistry we expected to see was an 
increase in nitrification, so nitrification monitoring was 
required, a look at the nitrification to see whether there was 
a change in nitrification. That was done and it didn't pick up 
a change that would have indicated a problem with corrosivity. 
That is one of the open questions here as we look at all the 
data to see why did the water become more corrosive even though 
the way we anticipated it might become corrosive was not caught 
by the followup work that was done. So the nitrification study 
was there to identify whether that had caused a corrosion 
problem and that didn't indicate the problem.
    Ms. Norton. This is what gives me pause. I asked a very 
specific question. I know what happened in the District of 
Columbia. I am trying to find out whether or not if the very 
action that is taken now had been taken before, whether we 
could have avoided the problem. I keep hearing nitrification 
studies, I keep hearing we did something in 60 days that I 
still don't see the relevance of. It seems to me one way to 
allay our problem, particularly the problem you have with the 
fact that my bill is ``pre-mature'' is to say no and we are 
going to change it, in the lead and copper rule. I can't get a 
straight answer. Therefore, I don't have the confidence, at 
least with respect to this question which goes directly to what 
you have just found is the problem, namely the failure to do 
some kind of study. I don't have the confidence that you would 
do that or will do that absent a mandate to do that.
    I have other questions but I will go forward.
    Chairman Tom Davis. The gentleman from Maryland, Mr. Van 
Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I want to thank the witnesses for their testimony. 
Sometimes a severe problem in one jurisdiction raises questions 
and red flags about problems that may be far more extensive. 
That, I believe, has been the case with respect to the terrible 
situation with D.C., the lead in the water in the District of 
Columbia. It has raised awareness around the country and as a 
result, others have also begun testing their water. In 
Montgomery and Prince Georges Counties, school systems began 
testing their water and in fact, found elevated lead levels in 
the schools. I was at my son's elementary school the other day 
and when you went to the faucet, there is a big sign up there 
saying ``Do not drink this water. It has not been flushed for 
long enough.'' There are signs throughout that school and other 
schools. So it seems to me that we do need to get to the bottom 
of this on a national level. I want to thank Ms. Norton for her 
leadership on this and for introducing the legislation.
    I guess most of my questions will be to you, Mr. Grumbles, 
since they relate to the legislation itself. I assume that 
since your conclusion at least for now is that it is premature 
to go forward with this legislation, that is based on the fact 
you have reviewed and read the legislation, is that right?
    Mr. Grumbles. I have read through it, yes, sir.
    Mr. Van Hollen. There has been a lot of talk about the 
replacement of service lines and I think it is true, whatever 
we agree to, if there is some consensus, that will be a longer 
term solution and it takes time to actually do those 
replacements. I think we could all agree that three things are 
critical. One, that you have ongoing active monitoring; second, 
that you have appropriate action levels; and third, that if you 
find something that is inconsistent with the standards, that 
you have a system to quickly alert the public so individuals 
can take action immediately. Would you agree with that?
    Mr. Grumbles. Yes.
    Mr. Van Hollen. Let me ask you about the notice 
requirements because my understanding is that the EPA has 
concluded, maybe I am wrong, that D.C. did not comply fully 
with the notice requirements, is that right?
    Mr. Welsh. We have not finalized a review of that but we 
did identify areas where we believe that D.C. didn't fully 
comply with the rule and sent that in a letter to them, got 
additional information and we are continuing that review. We 
haven't made the final determination but we did indicate areas 
already where we believe the rule wasn't fully complied with.
    Mr. Van Hollen. Let me ask you this. You have identified 
some areas but what if the District of Columbia had minimally 
complied in those areas where you found problems, they 
minimally complied, would that, in your view, have been 
adequate notice to the residents of the District of Columbia?
    Mr. Welsh. It is difficult to judge. I think we want to do 
a better job of review in the region and assessing whether, in 
fact, the information they put together is one, fully 
consistent with the rules but did it get the impact through to 
the consumers so they understood the message?
    Mr. Van Hollen. Let me take the second part because the 
conclusion is clear to most people that D.C. residents were not 
adequately informed. This broke in the newspapers and I don't 
think people were adequately informed. I think whether or not 
D.C. may have technically been in violation of some of the 
rules overlooks the larger question which is I think the 
current regulations with respect to notice are inadequate. I 
guess my question to you, Mr. Grumbles, is having reviewed the 
legislation, which provisions in the notice section do you find 
objectionable or premature? Maybe you don't. You said the 
overall bill was premature. Maybe you believe that part was not 
premature. I am trying to get at what we can agree on and what 
we don't.
    Mr. Grumbles. Honestly, when you get into the specifics, I 
am not able to go into any detail. I think the spirit of the 
bill on notice is admirable. I think one of the things the 
agency wants to work with you on, whether through guidance or 
looking at whether or not to modify the rule, is the point in 
the legislation that better notice is required.
    Personally, one of the things I have not finished doing is 
going through some of the specific aspects. I know that what we 
have to do responsibly is to weigh what is the balance between 
the notification requirements, what is the right degree to get 
out the word so that people know this. We don't want to have 
something become so routine that the consumers are inundated on 
a regular basis so that they mix the big picture. I think the 
spirit of the bill is good on increased notification and 
monitoring.
    Can I just say, I misspoke a few minutes ago when Delegate 
Norton and I were talking about the corrosivity study and I 
mentioned the 60 days. What I was referring to incorrectly was 
the existing rule, a 60-day notification requirement. It is not 
a study, it is a notification requirement, if that helps to 
clarify. The public notification, I think my point when I said 
the legislation provides a helpful road map, it is precisely in 
areas like that where it is a good road map for discussion in 
our expert national working groups that we are having on 
various ways to look at the existing guidance and the rule, and 
the spirit of the legislation in that respect is good but I 
have to defer on the specifics and whether or not some might be 
more than necessary or not as effective as existing guidance or 
existing rules.
    Mr. Van Hollen. Mr. Chairman, I know my time is up and I 
have more questions but let me say, there are some things that 
will take time and where there may not be consensus. It seems 
to me we should identify those areas and identify areas where 
there is consensus because when it comes to adequacy of public 
notice and monitoring, things like that where we can 
immediately take action, it seems to me we should move forward 
quickly in those areas if there is a problem. It would be very 
helpful, at least to me, if we could identify those parts of 
this legislation Ms. Norton has introduced where there is 
consensus and we can move forward immediately and then isolate 
the areas of the legislation that are maybe more controversial 
or where we don't have consensus.
    Chairman Tom Davis. Thank you.
    Ms. Norton. I appreciate Mr. Grumbles, your response on the 
corrosion control study because my staff brought up the wording 
for me and you preempted them and I appreciate that.
    Would you want a situation to arise in adjoining counties 
here or in other States where the water system proceeded 
without a corrosion control study given what happened in the 
District of Columbia? You acted after the fact to do a 
corrosion control study. I am just trying to see whether 
anybody is into preventing this problem elsewhere. You are 
doing it now. Is it your testimony that you will do it if you 
find a situation like what you found in the District of 
Columbia after you found it or do you think it is better to do 
it in advance? Can I get a straight answer on that one?
    Mr. Jacobus. I will try this. I believe a corrosion control 
study might include a pipe loop study and if we look back on 
the situation in D.C., it is possible, we can't be certain, but 
a pipe loop study was not done at the time of the change from 
chlorine to chloramines. Since we don't understand exactly the 
chemistry of what has caused this problem, it is possible that 
a pipe loop study may have identified that problem in advance. 
We can't be certain but it is possible that could have helped 
in this situation. I am not in a position to judge whether in 
every type of treatment change that an authority might have to 
make, whether that requires a full pipe loop study to determine 
whether there have been changes to the corrosivity, but that 
may have helped in the case of D.C.
    Ms. Norton. One would think then that the EPA rules would 
outline the various ways the locality can proceed but Mr. 
Jacobus and Mr. Johnson had to figure it out for themselves. If 
you have an expert environmental agency, it seems to me whether 
it is pipe loop study or full corrosion control study, it is 
something that there ought to be some guidance on which brings 
us back to the rules which give no guidance whatsoever on that 
as Mr. Grumbles indicated there is a notice requirement. This 
is an example of why there is legislation.
    Mr. Grumbles. I know you have limited time but I wanted to 
say as we are carrying out work groups and work shops looking 
at areas of guidance, I think we are learning painfully in this 
instance the importance of understanding the changes and the 
unintended consequences when you have a change in treatment and 
how that relates to corrosivity. That is something we will 
certainly commit to work on more at a national level as well as 
to make sure when treatment changes are being made, as much as 
possible, we can understand or the primacy agency in those 
other 48 areas of the country understand exactly the effect.
    Ms. Norton. It seems to me even given the fact that the 
information is still rolling it, it has rolled in rather 
strongly. Your own experts, by the way, after the fact, Dr. 
Thompson indicated he thought this was very, very likely to be 
the result of corrosivity. At the very least, the EPA you would 
think, would be sending out messages, phone home before you 
change chemicals in your water. The notion that we can't get 
that kind of response is very troubling because it means 
everybody is still on his own and I appreciate how you have 
been willing to go.
    Let me go to notification. That is an easy one. That is one 
I think everyone agrees we might be able to deal with. Of 
course there have been no changes and you have gotten to WASA 
and indicated they should have done more. Let me tell you the 
notification problem that really bothers me.
    The notification problem that bothers me is that I am 
pregnant. I hope not. [Laughter.]
    I am drinking the water but I am in 1 of the 10 percent of 
homes that have very high lead levels because you have a 90 
percent rule. Not only don't I know it while I am drinking 
water during my pregnancy but I will never know it. So then I 
am going to use the water to make the baby's formula and I am 
going to continue to use the water while the child is in the 
formative years of brain development between ages 1 and 5 and 
nobody ever told me about lead in the water because of the 90 
percent rule and I think you only have 50 samples even in a 
huge city like this and I was unlucky enough to be in the 10 
percent and I never knew it. I am asking you what we should do 
about these lost residents, these people who never knew? Is 
there an obligation to at least give them some notice? Should 
everybody have notice rather than only some of those who may 
have lead? Should everybody have notice that there is lead or 
may be lead in the water?
    Mr. Welsh. I would agree and I acknowledge the tone of the 
question that I think one of the priority areas for the agency 
to review the existing rule and our guidance associated with it 
is the amount of notice that is currently required adequate, is 
it robust enough to get out the word?
    Ms. Norton. What is your timeframe on that, Mr. Grumbles?
    Mr. Grumbles. We are going full throttle on the review of 
the existing rule.
    Ms. Norton. The people I am talking about are drinking the 
water, so I want to know when everybody who may be drinking 
water is going to know they may be drinking water so they can 
switch real quick? That is why I am asking for the timeframe on 
that one. That is the most serious one.
    Mr. Grumbles. The timeframe for the immediate notification.
    Ms. Norton. Even the 10 percent of the homes in a 
particular jurisdiction which may be above the action level 
would at least know it. This is notification only.
    Mr. Welsh. One thing I can add is separate to the lead and 
copper rule, the consumer confidence rule requires the 
authority to put out a report on the quality of the water. In 
the annual consumer confidence report, the minimum and the 
maximum and the 90th percentile level has to be reported, so 
there is a mechanism that is designed to let the public know 
what the 90th percentile level is. That speaks partially to the 
concern you are talking about. I know there are issues about 
whether that will be read all the way through and that message 
will get through if it is just in the consumer confidence 
report but that existing requirement gets to some of the issues 
you are discussing.
    Ms. Norton. I wish you would look closely at that. I really 
do think when we are talking about pregnant and lactating women 
and children under 6, maybe at that point alone, there should 
be no margin of error. I think the science on that has long 
been in, so I am asking for that as a first priority.
    Chairman Tom Davis. To go along with that, I think it is 
really important to worry about the entire water system. What 
does WASA do for those homes where the lead levels exceed the 
action level when the overall system doesn't? Does the EPA 
require action with respect to those?
    Mr. Welsh. In the case where there is not an exceedence, 
but there are individual samples over the limit? No, there is 
not a requirement in the lead and copper rule that a specific 
action take place.
    Ms. Norton. You see the point the chairman is bringing out?
    Mr. Welsh. Yes.
    Ms. Norton. Thank you. That really does clarify the point 
even better. Do you think, Mr. Grumbles, Mr. Welsh, that water 
fountains in school ought to be tested on a frequent basis?
    Mr. Grumbles. I think they should be tested on a frequent 
basis. I say that and I have to acknowledge that I send out 
letters to every State in the country asking them whether they 
had a program for lead in drinking water at schools and day 
care facilities, we got back a mixed bag in terms of the number 
of programs specifically that States have related to lead in 
drinking water at schools and day care facilities.
    Ms. Norton. You got back what? I am asking should they be 
tested and you said what happened?
    Mr. Grumbles. I said it was a mixed bag and I meant that 
some of the States have programs and others do not.
    Ms. Norton. Let me ask my colleague, was your son's school 
in Montgomery County? That is a public school in Montgomery 
County where they now have these signs. You think this thing is 
localized in the District of Columbia. Montgomery County 
doesn't get water from D.C. They all come under your 
jurisdiction and this is why I am probing this question. Should 
water fountains in the United States be subject to the mixed 
bag you described or should water fountains be tested on a 
frequent, not even saying what frequency should be. We think 
once a year is par for the course but should they be tested on 
a frequent basis?
    Mr. Grumbles. I think they should. The point I wanted to 
make and it is an important one based on the way the current 
law is implemented and with the court cases involving the roles 
of various governments. The States primarily carry out these 
programs for the Safe Drinking Water Act as it relates to 
schools and also schools and day care facilities if they are 
public water systems, then there is an action level for the 
lead and copper rule.
    Ms. Norton. Should there be a national requirement because 
you have varying responses from jurisdictions? Is the issue of 
lead in the drinking water of children serious enough for there 
to be a national requirement that water fountains in schools be 
tested on a frequent basis?
    Mr. Grumbles. I know there is a national requirement based 
on the Lead Contamination Control Act of 1988.
    Ms. Norton. After the child already has lead in his system, 
please take back lead. Every answer I get is after we see the 
problem, we are going to do a corrosion control study, we are 
going to get to the water fountain have children have drunk the 
water. I am asking should the water fountains in schools, this 
is about the third time I have asked this question without 
getting an answer, should the water fountains in schools be 
tested on a frequent basis?
    Mr. Grumbles. I think they should and I respect the 
question and I agree that is the case. What I wanted to 
communicate is that there needs to be a discussion about the 
appropriate roles for not only the EPA but the States.
    Ms. Norton. I agree, only calling for a national standard 
so that kids in Montgomery County wouldn't find they are not 
tested except every 5 years but D.C. tests every year because 
we have had a crisis. That is all I am asking.
    Mr. Grumbles. One of our priorities Congresswoman is to 
survey the country and see what States are doing with respect 
to testing.
    Ms. Norton. In other words, knowing full well that we don't 
have uniformity in anything in this country, you want to do a 
survey before you decide whether or not there should be annual 
testing of the water fountains in schools.
    Mr. Grumbles. We want to make sure whatever is done is done 
in a way that is sustainable and really works. It just needs 
collaborating with our partners. That is it.
    Ms. Norton. We would like to have a timeframe on that one 
too.
    Chairman Tom Davis. We have another panel waiting and a 
limited period of time.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. Ms. Norton covered 
some of the areas I wanted to cover but I do want to delve into 
the issue of the standard and the action level a little bit 
more because as I understand right now you do a test which is 
already a sample of the universe out there and if 10 percent 
are non-compliant, or under 10 percent, then you still pass the 
test. In other words, the system gets an OK. Is that right?
    Mr. Grumbles. Right.
    Mr. Van Hollen. To make sure I understand, of the 10 
percent of homes that were found to be non-compliant, there is 
currently no notice requirement that goes directly to those 
homes?
    Mr. Grumbles. Right.
    Mr. Van Hollen. This raises a larger issue because it is 
not just the 10 percent of homes that were tested, it also 
means in that larger universe you would extrapolate, they are 
10 percent of the homes in the entire area, that are non-
compliant. That is why this legislation requires we take 
another look at this action standard and it proposes two 
alternatives. One is to have a minimum national standard at the 
tap and the alternative is that the EPA determines that not 
practicable, that they have to develop an actionable level that 
gives protection somehow to everybody because it is not the 10 
percent of the people in the test not getting informed, it is 
also 10 percent of the population that may well have 
significant lead problems in their water who don't know it and 
are not informed and no change is being made in the system. Why 
shouldn't we revisit that whole issue and isn't it necessary to 
revisit that issue?
    Mr. Grumbles. Congressman, I am fully supportive of 
revisiting aspects of the rule including the 90th percentile 
and the action level. I am not in a position to commit to a 
rulemaking. I am in a position to commit to doing what we want 
to do and that is to continue to work with congressional, State 
and local partners and the public on saying does this rule, 
which is about 13 years old, continue to make sense? There has 
been success. We have seen reductions in lead in drinking water 
throughout the country, so we shouldn't make light of that or 
neglect to see that.
    When you get into the fine specifics, the percentile 
approach, the monitoring, the notification as you point out, 
the further things that can be done if not at a national level 
at a State and local level with respect to schools, we are 
welcoming that dialog and we appreciate that. We will work with 
you and your colleagues.
    Mr. Van Hollen. And I appreciate that. You mentioned the 
rule was 13 years old and I would just point out that Mr. 
Waxman is not here but when this issue was raised 13 years ago, 
I have the document from that time, he specifically addressed 
this question about this rule would result in not protecting 
potentially 10 percent of the people. He said it protects only 
90 percent of the households, what about the other 10 percent? 
So while it is 13 years old, I think it is time to go back and 
relook at the warning Mr. Waxman raised 13 years ago on this 
very important question.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. We will let you have the last question, 
Ms. Norton, but we have to move to the next panel.
    Ms. Norton. I appreciate your generosity.
    Mr. Johnson, I did want to ask you a question. You raised a 
very important issue that I think the committee has to take 
seriously and I hope WASA will. It came forth in testimony that 
partial replacement would not do the job and Mr. Johnson has 
testified rather definitively to that. Indeed, we had testimony 
that partial replacement may make it worse because the two 
different metals could interact and one become a battery for 
lead.
    I am not going to ask a question since the chairman wants 
to move on, but at the very least the kinds of mainstream 
science you are working on may well be out of date if in fact 
partial replacement doesn't do the job and public utilities are 
spending millions of dollars or more to do that and worse, the 
science says partial replacement may make it worse. Your rule 
allows partial replacement so it seems to me you are at ground 
zero when it comes to looking again at that rule.
    Mr. Johnson, I appreciate what WASA has done. It has said 
to homeowners, while we are doing the work, we will replace the 
private section as well but we have had people call our offices 
to say they get a single dollar amount rather than a per square 
foot or linear foot amount. So it doesn't enable them to shop 
around, it is expensive. I want to ask if you have found a way 
since it really does make sense for WASA to do the whole thing 
while you are going into the ground, to help homeowners in fact 
take advantage of your service if it is the cheapest way to do 
it or do it some other way. Have you found a way to deal with 
this complaint we have had phoned in to my office?
    Mr. Johnson. Ms. Norton, I am not familiar with the manner 
in which the estimates are given, whether it is on a linear 
foot basis or not, but typically we found that our contractor 
because of the number of lines they are doing, the sheer 
volume, are able to do it much less expensively than a private 
plumber.
    Ms. Norton. But you give them only 30 days I think to make 
the decision.
    Mr. Johnson. It is 45 days that we require under the EPA 
rules to give them to make that decision and then they can come 
forward. We have also explored with a local bank and are 
attempting to establish a consortium of banks an opportunity to 
provide loans to homeowners who would be eligible in a low 
income category to replace those pipes in the private portion 
of their property. We also have looked at changing WASA 
regulations so that we would establish a per linear foot cost 
for providing the service from the public space into the 
homeowner's property. That is a rule currently in the D.C. 
register for public review and would establish a fixed price 
and we would work that on an average basis and work it into the 
system on an ongoing basis.
    Ms. Norton. Thank you. We will pass along that information.
    Mr. Welsh. May I add very quickly that while we agree that 
full lead service line replacement is the most protective, the 
partial replacements are not without value. Reducing some of 
the lead reduces some of the risk. So after a proper period of 
flushing, the samples do show that the partial line replacement 
has some benefit in reducing the lead that comes out the tap.
    Ms. Norton. This is very controversial, Mr. Welsh, because 
if that were the case, then one could say at least it helps. It 
was troubling to hear from experts at our last hearing that 
partial replacement may make it worse because of the 
interaction of the two metals and lead acting as a battery, so 
I am going to ask that you look closely at that before 
concluding what your rules already say, do partial replacement. 
That has been called into serious scientific question.
    Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    I want to thank this panel for being with us and for 
answering questions. We will dismiss you at this time.
    We will take a 2-minute recess as we bring our next panel 
together.
    [Recess.]
    Chairman Tom Davis. We now have time to recognize our 
second panel. We have Mr. Howard Neukrug, director, Office of 
Watersheds, Philadelphia Water Department, from the American 
Water Works Association; Ms. Angela Logomasini, director, Risk 
and Environmental Policy, Competitive Enterprise Institute; Mr. 
Scott Rubin, esq., consultant and public utilities expert; Mr. 
Paul Schwartz, national policy coordinator, Clean Water Action; 
and Ms. Katherine Funk, esq., Parents for Nontoxic 
Alternatives. I appreciate you all being here.
    As you know, it is the policy of the committee that we 
swear you in first.
    [Witnesses sworn.]
    Chairman Tom Davis. Try to keep it to 5 minutes. Your 
entire statement is in the record, so questions will be based 
on the entire statements. We have the light in front of you. 
There is a button there that opens your mic when you start.
    Mr. Neukrug, we will start with you and move straight on 
down the line. Again, thank you for your patience. We 
appreciate all of you being here. Thank you.

 STATEMENTS OF HOWARD NEUKRUG, DIRECTOR, OFFICE OF WATERSHEDS, 
    PHILADELPHIA WATER DEPARTMENT, THE AMERICAN WATER WORKS 
      ASSOCIATION; ANGELA LOGOMASINI, DIRECTOR, RISK AND 
 ENVIRONMENTAL POLICY, COMPETITIVE ENTERPRISE INSTITUTE; SCOTT 
 RUBIN, CONSULTANT AND PUBLIC UTILITIES EXPERT; PAUL SCHWARTZ, 
NATIONAL POLICY COORDINATOR, CLEAN WATER ACTION; AND KATHERINE 
            FUNK, PARENTS FOR NONTOXIC ALTERNATIVES

    Mr. Neukrug. Thank you very much and good morning.
    Thank you for this opportunity to present the views of the 
American Water Works Association on lead contamination in 
drinking water.
    AWWA is the largest and oldest drinking water, scientific 
and technical association in the world. This morning we had 
57,000 members but I think after hearing Ms. Norton's remarks, 
I think we are going to offer her an honorary membership to the 
American Water Works Association and make that 57,001 members 
representing all areas of the drinking water profession; 4,800 
utilities and 80 percent of the Nation's drinking water supply 
are members of the American Water Works Association. We have an 
extremely long history with the lead and copper rule.
    I would like to offer for the record an AWWA Research 
Foundation report showing $3.4 million of research that has 
been conducted on the issue of lead and copper and $2.5 million 
of new research that is about to begin in the area of corrosion 
control.
    Personally, I am from the Philadelphia Water Department and 
I ran pilot studies for lead and copper about 10 years ago; 15 
years ago I was involved with development of the original lead 
and copper rule, so I have quite a history with this rule.
    Nationally, I believe that the lead and copper rule has 
been extremely successful and the EPA's oversight of that rule 
has been tough and consistent. This is despite or because of 
possibly the highly complicated nature of this rule when in its 
sampling process, in its ownership of service lines issues, 
optimization and the education of the public about the issues, 
all are extremely complicated issues.
    I would like to remind everyone that lead exposure is a 
national issue and comes from many different sources including 
lead paint, leaded gasoline and lead solder and all of those 
have resulted in the work that is happening at the EPA and in 
Congress and across the Nation which has really reduced 
children's blood lead levels over the years. We are on a very 
big mission now to eliminate these lead levels completely but 
there is a lot of good work that has already been done.
    I respectfully suggest that the CDC or some organization 
like that take a new look at understanding all the remaining 
exposure pathways to lead in drinking water and from other 
sources and from that develop a comprehensive national, 
educational and action plan for dealing with the issue of lead, 
particularly in children.
    With respect to drinking water and the route of exposure, 
AWWA has consistently advocated a three-pronged approach. One 
is public education. Two is optimization of corrosion control 
and three is the reduction of lead materials in distribution 
systems. With respect to public education and outreach, 
extensive programs already exist nationwide. I think a key 
lesson I am certainly hearing this morning and is clear from 
the recent past is that a review is appropriate at this point 
of the education and outreach programs that exist for drinking 
water and lead issues and to look at the consistency of these 
programs.
    In terms of optimization of corrosion control, all systems 
should be optimizing for corrosion control. Drinking water is 
the universal solvent and every water is different, not just 
for lead but there are other issues for corrosion control 
including copper, including cast iron pipes and other issues of 
infrastructure which all require a well managed utility to 
optimize for corrosion control.
    Chemistry, as we heard this morning, varies widely by 
location, by type of water, it can vary daily, it can vary 
seasonally and studies are needed to understand from both the 
literature point of view, lab and pilot point of views, and 
what corrosion control optimization works best and to slowly 
implement full scale implementation of this. Every utility 
should be reviewing corrosion control practices both over time 
and with changes in treatment.
    Replacement of leaded materials where needed, there has 
been a tremendous success already with the lead free solder. We 
are not even lking about the solder issue at this point and it 
just shows the success that Congress and Safe Drinking Water 
have had in dealing with that issue.
    Caution over removing of lead service lines, nationally we 
are talking about $10 billion. This goes on top of a $500 
billion gap that the EPA has already recognized for drinking 
water and waste water utilities and infrastructure spending. I 
testified a few weeks ago on the issue of infrastructure and I 
talked about a crisis in priorities. We have limited funding 
and where to spend that and the question I think this panel is 
looking toward is where does lead fit into the priorities of 
the infrastructure issues in the industry.
    Finally, the issues in D.C. remind us all of the importance 
of understanding the cross links of all drinking water 
regulations. This is highly recognized in most of the 
regulations coming out particularly recently from the EPA but 
everything needs to be based upon good science and deliberately 
looked at over time. We need to do active monitoring, 
continuous verification of the effectiveness of corrosion 
control, disinfection byproducts and other issues.
    In summary, I would like to commend Delegate Norton for the 
spirit of the legislation of H.R. 4268. I will not call it 
premature but I will say I hope that the EPA, the drinking 
water industry and other parties have the opportunity to 
discuss and implement something through the regulatory process 
prior to legislative action on those issues.
    Mr. Chairman, I would request that this report from the 
American Water Works Research Foundation be entered into the 
record.
    Chairman Tom Davis. Without objection, it will be entered 
into the record.
    Mr. Neukrug. Thank you.
    [The prepared statement of Mr. Neukrug follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.061
    
    [GRAPHIC] [TIFF OMITTED] T6089.062
    
    [GRAPHIC] [TIFF OMITTED] T6089.063
    
    [GRAPHIC] [TIFF OMITTED] T6089.064
    
    [GRAPHIC] [TIFF OMITTED] T6089.065
    
    [GRAPHIC] [TIFF OMITTED] T6089.066
    
    [GRAPHIC] [TIFF OMITTED] T6089.067
    
    [GRAPHIC] [TIFF OMITTED] T6089.043
    
    [GRAPHIC] [TIFF OMITTED] T6089.044
    
    [GRAPHIC] [TIFF OMITTED] T6089.045
    
    [GRAPHIC] [TIFF OMITTED] T6089.046
    
    [GRAPHIC] [TIFF OMITTED] T6089.047
    
    [GRAPHIC] [TIFF OMITTED] T6089.048
    
    [GRAPHIC] [TIFF OMITTED] T6089.049
    
    [GRAPHIC] [TIFF OMITTED] T6089.050
    
    [GRAPHIC] [TIFF OMITTED] T6089.051
    
    [GRAPHIC] [TIFF OMITTED] T6089.052
    
    [GRAPHIC] [TIFF OMITTED] T6089.053
    
    [GRAPHIC] [TIFF OMITTED] T6089.054
    
    [GRAPHIC] [TIFF OMITTED] T6089.055
    
    [GRAPHIC] [TIFF OMITTED] T6089.056
    
    [GRAPHIC] [TIFF OMITTED] T6089.057
    
    [GRAPHIC] [TIFF OMITTED] T6089.058
    
    [GRAPHIC] [TIFF OMITTED] T6089.059
    
    [GRAPHIC] [TIFF OMITTED] T6089.060
    
    Chairman Tom Davis. Thank you very much.
    Ms. Logomasini.
    Ms. Logomasini. Good morning. Thank you for having me to 
testify today.
    I am Angela Logomasini of the Competitive Enterprise 
Institute. We are a public policy group focusing on free market 
and local solutions to a variety of public problems.
    I am going to start with somewhat of a different angle on 
this. I think everyone has been focusing on whether the 
regulations were sufficient, whether we need more regulations. 
I would argue that more regulations are not going to be the 
solution. Certainly Delegate Norton has wonderful intentions 
and I think probably nobody in the Congress cares more about 
people in D.C. than she does, but I am not sure this is the 
right approach.
    Looking at the issue in a larger perspective, with drinking 
water regulations the problem is they are not flexible enough. 
Drinking regulations affect different communities in different 
ways and this issue goes beyond the boundaries of D.C. and may 
end up having impacts that have serious consequences for people 
in communities around the Nation. Part of the problem is some 
communities that are smaller are going to be paying very high 
costs than they do today and make high tradeoffs for the 
regulations they have to meet. CBO did a study a few years back 
about this and sometimes there is actually a net loss to public 
health. As Delegate Norton noted, there are a lot of other 
issues that need to be addressed by the government and costs 
can be transferred from one area to another. For individuals, 
extremely high rates may mean difficulty paying insurance and 
things of that nature.
    There may be a couple reasons why D.C. didn't send out the 
notification quickly, maybe there are reasons why people aren't 
testing as frequently as we would like. I think the law, 
because it has such inflexible, rigid regulations, may scare 
communities into trying to avoid having to trigger those 
regulations and having to avoid making sacrifices from other 
programs to pay for them. In this case, lead in drinking water 
poses some risk but lead in paint poses a bigger risk. Maybe 
resources in communities ought to be dedicated toward bigger 
risks, even beyond the lead issue. Maybe communities want to be 
spending their money on taking care of getting that emergency 
supply equipment but if they are triggering these regulations, 
they can't. Maybe they could find a better way to address the 
lead issue. Maybe use of filters in the homes is the answer but 
the regulations are going to trigger line replacements and they 
are not even sure the line replacements are going to work. So 
there are a lot of complicated factors. I think the law is 
contributing to that. Certainly the media coverage is something 
we all can't control, but it is sounding off an alarm too that 
may be more severe than warranted.
    I think the D.C. government, although I am sure they are 
not perfect and make mistakes, didn't want to set off an alarm 
because they knew the cost to the city could be dramatic and 
they knew that there might be more affordable ways and also 
didn't want to scare people needlessly. There may be reasons 
for that. You have to think about this in terms of other 
sacrifices. Price Waterhouse did a study a few years ago 
basically surveying communities and showing that communities 
were making big sacrifices to meet a whole host of Federal 
mandates. Families too make these sacrifices.
    It was asked earlier if the EPA considers affordability and 
the tradeoffs of this one size fits all policy and it is 
supposed to but the way the law works what they consider 
affordable or feasible is silly for some communities. For 
instance, affordability to a household is determined as 2.5 
percent of the median income. That is $1,000 and that is for 1 
year of drinking water regulation. So if you have 80 some 
regulations and the EPA can have a regulation that goes up to 
$1,000 a year for a family, you can see that is not workable.
    Feasibility standards, whether a regulation is economically 
feasible, is determined based on the size, based on what is 
feasible for the bigger systems but there are a lot of small 
systems that need some flexibility and there are provisions in 
the law that are supposed to allow for flexibility but they are 
rarely employed. What we need now more than ever is some 
flexibility for communities to deal with problems rather than 
more government regulations with more unintended consequences, 
for instance, the change in disinfection was an unintended 
consequence, not anticipated, probably not easily anticipated, 
so what we should be looking for is finding ways to assist 
rather than trying to find ways to regulate in the future where 
we have limited information.
    Thank you.
    [The prepared statement of Ms. Logomasini follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.068
    
    [GRAPHIC] [TIFF OMITTED] T6089.069
    
    [GRAPHIC] [TIFF OMITTED] T6089.070
    
    [GRAPHIC] [TIFF OMITTED] T6089.071
    
    [GRAPHIC] [TIFF OMITTED] T6089.072
    
    [GRAPHIC] [TIFF OMITTED] T6089.073
    
    Chairman Tom Davis. Thank you very much.
    Mr. Rubin, thanks for being with us.
    Mr. Rubin. Good morning, Mr. Chairman.
    Thank you for inviting me to be here today. I will mention 
that I am appearing today at my own expense and not on behalf 
of any client and I am doing that to ask you to focus on the 
larger problem of setting priorities for public health 
protection, particularly for the millions of low income 
households in this country. Then I will discuss how H.R. 4268 
fits into this picture.
    Initially, I would emphasize that nothing in my testimony 
should be used to decrease our commitment to controlling the 
exposure of infants and children to lead. I am concerned 
however, about the allocation of our limited resources for 
public health protection particularly for low income families. 
The health of low income families may be jeopardized by various 
environmental problems including lead exposure but their health 
is even more severely impacted by their lack of money to pay 
for essential services. One out of every five households in 
this country has an annual income less than $20,000. Most 
households with incomes below this level face serious 
challenges in attempting to meet their families' basic needs. 
Many low income families are faced with having to make serious 
tradeoffs that directly affect their family's health.
    For example, the Census Bureau estimates that 10 million 
households are not able to pay their energy bill each month, 7 
million aren't able to see a dentist when they need to, 6 
million can't see a doctor, 5 million go hungry at some point 
during the year, 4 million have their telephone service 
disconnected, 2 million have their gas or electric service 
disconnected and nearly 2 million families have to leave small 
children alone because they can't afford child care. The plight 
of low income families raises important questions about our 
national drinking water policies, including how much more 
should you ask these families to pay for drinking water. Will 
an incremental improvement in the safety of their water provide 
benefits at least equal to the cost and will the tradeoffs the 
family must make result in improved or worsened public health 
overall?
    Because there are so many low income families who will be 
affected by an increase in water costs, we need to be sure that 
the costs of paying for new drinking water requirements would 
at least equal the benefits from that measure. If they don't, 
then we run the risk of harming the health of low income 
households because many of them will have to cut back on some 
other necessity in order to pay the higher water bills.
    With this understanding, I have a few concerns about H.R. 
4268. First, the bill mandates a course of action without first 
determining its costs and benefits. The bill would require 
water utilities that experience an elevated lead reading to 
replace all lead containing service lines in their system. I 
don't know the total cost of such an effort. I would estimate 
it would cost at least $1,000 per line and probably several 
times that amount in many instances. I don't know how many 
utilities would be subject to the requirement or how many 
service lines would need to be replaced. Very importantly, we 
also don't know the public health benefit that will be derived 
from this effort. Will the benefits from reduced lead exposure 
more than offset the reduced access to food, heat, medical care 
and child care that we can expect low income households to 
experience?
    Second, I am concerned about the relationship between some 
of the requirements in the bill and the funding provision. 
While the legislation requires a 10-year line replacement 
program, it authorizes funding for only 5 years. Moreover, the 
bill's mandate exists without regard to the actual availability 
of funding. Even if the utility does not receive a grant, the 
utility would still have the obligation to replace service 
lines.
    Thus, while the prospect of $1 billion in Federal funding 
is certainly a positive aspect of the legislation, I don't know 
if this amount is sufficient to meet the mandates set out in 
the bill and because of that, we can't assess the impact of the 
legislation on the water bills paid by low income families. If 
we don't know that, we can't determine the ultimate public 
health consequences of the requirement.
    Please don't misunderstand me. I am not saying that we 
should do nothing about the lead problem either here in the 
District or elsewhere. I have been arguing for more than a 
decade that we need to provide much better and more 
understandable notice to the public. I think the legislation 
takes an important step in that regard, but we also need to 
make sure we are spending our money wisely. We need to make 
sure we are using our resources to enhance the overall level of 
public health protection, particularly to low income families.
    The 1996 amendments to the Safe Drinking Water Act require 
the EPA to balance the cost and benefits of any proposed 
regulations. I continue to support that as being a reasonable 
approach to ensuring that we spend our dollars wisely. If we 
properly consider both the benefits and consequences of 
investments in our drinking water utilities, I am hopeful that 
we can improve the quality of life for 20 million low income 
households in this country.
    Again, I appreciate the opportunity to be here and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Mr. Rubin follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.074
    
    [GRAPHIC] [TIFF OMITTED] T6089.075
    
    [GRAPHIC] [TIFF OMITTED] T6089.076
    
    [GRAPHIC] [TIFF OMITTED] T6089.077
    
    Chairman Tom Davis. Thank you very much.
    Mr. Schwartz, good to have you with us. Thanks for being 
here.
    Mr. Schwartz. Good morning.
    Thank you, Mr. Chairman and members of the committee, for 
giving Clean Water Action a chance to testify on this important 
issue here in the District of Columbia and nationally. Clean 
Water Action is an advocacy organization in some 25 States and 
here in the District with over 700,000 members. We seek to take 
lessons we have learned at the local level trying to fix 
problems and inject them into the policy debate at the State 
and Federal levels.
    We wholeheartedly support H.R. 4268, the Lead Free Drinking 
Water Act of 2004. The legislative approach used in this bill 
builds on lessons learned and that we are still learning in the 
District over the past 4\1/2\ months and upon concerns with 
shortcomings of the lead copper rule since its inception as 
Congressman Van Hollen noted in 1991.
    H.R. 4268 is a cost effective, pro-active, strengthening 
that gives the EPA regulatory flexibility while giving the lead 
and copper rule more teeth. A recent EPA survey of available 
State information shows that 22 community water suppliers, 
including DCWASA, serving over 5 million people have exceeded 
the action levels for lead at least one time since 2000. There 
is no data for 15 percent of the systems serving populations 
above 50,000.
    The situation in D.C. surfaces a number of problems with 
the lead and copper rule some of which have been touched on 
earlier today, its enforcement and its implementation. In my 
remaining 3 minutes, I hope to illustrate some problems and 
show how this needed bill provides tools to correct the 
problem.
    We are happy with the fact that the Washington Aqueduct 
Division and DCWASA and others are now moving more aggressively 
forward on a number of fronts but they are operating in an 
inefficient and haphazard crisis mode which could have been 
avoided if the EPA had been more aggressive and proactive in 
its oversight and enforcement role. The lead and copper rule is 
not a self implementing rule and without enforcement, it 
provides the public little protection.
    In D.C. and in some other cities, elevated lead levels in 
drinking water were soft pedaled in the right to know reports 
or consumer confidence reports and other mandatory notes. 
Parents and even city officials didn't learn about the problem 
until well after the fact. The bill fixes this problem by 
requiring more effective notification and public education and 
mandatory swift notification to people whose water is tested. 
The bill also requires that the effectiveness of the notices 
must be evaluated.
    In D.C. and many other cities, the water systems were 
allowed by the EPA's rules to reduce the number of homes they 
tested for lead and the frequency of testing. D.C. and Boston 
also apparently invalidated or tried to invalidate samples to 
avoid exceeding the action levels for lead. These problems 
contributed to the delay in detecting the lead problem and 
allowed unnecessary exposure of many kids and pregnant moms. 
The bill fixes that by ordering more aggressive statistically 
valid and frequent monitoring.
    In D.C., changes in treatment apparently triggered more 
corrosion as we heard this morning and resulting in lead level 
increases but no changes in corrosion control. The bill 
requires a detailed review of corrosion control when other 
treatment changes are made. In D.C. and other cities, the water 
system partially replaced the lead service lines in homes with 
elevated lead levels in water but studies as we have heard have 
now shown that for a period of time after the lead service 
lines were replaced, lead levels actually increased and then 
eventually come down. If replacement of the lead service line 
is indicated, then only full lead service line replacement as 
called for in the bill brings the level of lead down to a 
minimum.
    There are many other problems which I don't have the time 
to get into that are addressed by this bill but I do want to 
take my remaining minute to address the issue of funding 
because I think that is an important issue. Nationally, as we 
have heard from Howard, the EPA estimates there exists a half 
trillion water and wastewater infrastructure gaps over the next 
20 years. Our old drinking water treatment systems such as the 
Washington Aqueduct need to be updated. Duquesne distribution 
systems, whose pipes are reaching the end of their useful life 
spans, need to be repaired and replaced.
    If we are going to have simultaneous compliance, we need to 
look at not doing the cheapest thing but doing the right thing 
that gets us simultaneous multiple benefits, so we need to 
look, for instance, within the Army Corps of Engineers and 
around the country at the Washington Aqueduct and around the 
country at using modern filtration and treatment alternatives, 
granular activated carbon, ultraviolet and other technologies 
that frankly are not in widespread usage in this country but 
are throughout Europe, Japan and most of the rest of the 
developing world. That is why we are supporting the creation of 
the Clean Water Trust Fund, full funding of the Clean Water and 
Drinking Water State Revolving Fund accounts, a water help 
program which we would invite AWWA and Scott and other people 
to join us in supporting a program from the Federal Government 
to low income consumers and why we are excited about the $1 
billion in funding which certainly doesn't cover the whole gap 
but is a start in acknowledging the Federal role and 
responsibility in dealing with some of the lead problems here 
in the District and around the country.
    Thank you.
    [The prepared statement of Mr. Schwartz follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.078
    
    [GRAPHIC] [TIFF OMITTED] T6089.079
    
    [GRAPHIC] [TIFF OMITTED] T6089.080
    
    [GRAPHIC] [TIFF OMITTED] T6089.081
    
    [GRAPHIC] [TIFF OMITTED] T6089.082
    
    [GRAPHIC] [TIFF OMITTED] T6089.083
    
    [GRAPHIC] [TIFF OMITTED] T6089.084
    
    [GRAPHIC] [TIFF OMITTED] T6089.085
    
    [GRAPHIC] [TIFF OMITTED] T6089.086
    
    [GRAPHIC] [TIFF OMITTED] T6089.087
    
    [GRAPHIC] [TIFF OMITTED] T6089.088
    
    [GRAPHIC] [TIFF OMITTED] T6089.089
    
    [GRAPHIC] [TIFF OMITTED] T6089.090
    
    [GRAPHIC] [TIFF OMITTED] T6089.091
    
    [GRAPHIC] [TIFF OMITTED] T6089.092
    
    [GRAPHIC] [TIFF OMITTED] T6089.093
    
    [GRAPHIC] [TIFF OMITTED] T6089.094
    
    [GRAPHIC] [TIFF OMITTED] T6089.095
    
    [GRAPHIC] [TIFF OMITTED] T6089.096
    
    [GRAPHIC] [TIFF OMITTED] T6089.097
    
    [GRAPHIC] [TIFF OMITTED] T6089.098
    
    [GRAPHIC] [TIFF OMITTED] T6089.099
    
    Chairman Tom Davis. Thank you very much.
    Ms. Funk, thanks for being with us.
    Ms. Funk. Thank you.
    Good afternoon. My name is Katherine Funk and I am an 
antitrust attorney here in Washington for a large national law 
firm but today I sit here in two other roles, first, as a 
homeowner in the District of Columbia and most importantly, as 
the mother of a 5-month-old daughter who is with me here today 
but is apparently out to lunch.
    Thank you, Chairman Davis, for holding this hearing. I 
would also like to thank Delegate Norton for her leadership on 
this public health crisis.
    Today, I would like to discuss real life situations that I 
and other D.C. homeowners and parents have faced and to urge 
support for and passage of the Lead Free Drinking Water Act of 
2004 which would help prevent the recurrence of these problems 
in D.C., often referred to as the Nation's laboratory, and in 
other cities with aging water infrastructures. Further, this is 
not a partisan issue. As Senator Crapo of Idaho, a Republican, 
told me in my living room last month at a public gathering on 
this issue, in his opinion, safe, clean drinking water is the 
No. 1 environmental problem facing the United States.
    Thousands of homes in D.C. have tested for lead levels in 
drinking water far above the EPA action level of 15 ppb. Our 
home, just a few blocks from here on Capital Hill, is one of 
them. In February, WASA tested our lead levels at 29 ppb on the 
first draw and 100 ppb on the second draw. Many of our 
neighbors have tested higher. The problem is twofold. First, 
that in 2004 this problem even exists in this Nation's Capital 
and second, in the maddeningly unresponsive response to the 
problem by WASA, the EPA, the Corps of Engineers and the D.C. 
government have basically given the D.C. residents the stiff 
arm. Most unfortunately, current law and regulations let them 
do it. I will give you a few examples and point out how this 
legislation would help.
    WASA, the EPA and D.C. health officials knew for at least 2 
years that water samples throughout the city were showing 
wildly elevated levels of lead, yet despite some test results 
showing levels in the hundreds and even thousands of ppb, the 
people at WASA, the EPA and the D.C. government did not inform 
the people in the homes that tested high, let alone the general 
public. Why? As it turns out, the current law and regulations 
do not require that such results be shared unless 10 percent of 
the test results are elevated. Why does this matter? When I was 
pregnant last year, I drank glass after glass after glass of 
D.C. water daily for 9 months just as my doctor ordered. Every 
evening, I took my prenatal vitamin with a glass of D.C. tap 
water. Who would have thought that these acts which should have 
been good for my child could instead have been endangering her 
development? If WASA had only announced that its testing showed 
elevated blood levels and that certain persons, pregnant and 
nursing women and small children should take precautions, I 
would have been able to make an informed decision about my 
health and that of my daughter. This legislation requires 
notification to persons in all homes that test above the EPA 
action level, a relatively cost free solution.
    WASA's lack of knowledge of its own inventory which hinders 
its ability to solve its problems and its unwillingness to fill 
in its information gaps is the second issue. As I mentioned, 
our water has elevated lead levels, yet WASA does not know and 
has taken no steps to determine whether our water level service 
line is lead. According to published reports, tens of thousands 
of other homes in D.C. are in the same position. Why is this 
information important? Because as an unknown, WASA has not 
offered to us any other remedial efforts, including filters, 
despite the fact that we had elevated lead levels and an infant 
in the home and I am nursing. Even in today's Washington Post 
story, WASA officials only mention those homes with lead 
service lines, completely ignoring us unknowns. This 
legislation requires local water agencies to maintain up to 
date information about their service line inventory. Again, a 
relatively low cost solution.
    Third, when water samples return test results putting WASA 
over the threshold for replacing service lines, WASA began 
nullifying results. Incredibly the EPA, which has the role of 
oversight, allowed them to do this. Let us call it what it is 
and I am not being hysterical. It is a cover up and it puts 
thousands of D.C. children and pregnant women at risk. 
Additionally, the entire testing protocol is inadequate. The 
number of samples required is not consistent with accepted 
scientific protocols. This legislation eliminates the existing 
loopholes that allow systems to avoid replacing lead service 
lines by conducting water tests and it mandates sampling at a 
sufficient level to obtain an accurate measure of the 
situation.
    Today's story in the Post makes it seem that this is a 
problem merely of water chemistry. However, the story presents 
a stark choice, on the one hand, too much lead, on the other 
hand, chlorine, a known carcinogenic. The real problem is the 
presence of lead in the service lines and in home plumbing 
which leads me to my final two points, the misinformation and 
outright lies promulgated by WASA, the D.C. government, 
including bizarrely its Department of Health.
    Since the day the toxicity of the D.C. drinking water 
became public notice, WASA and D.C. government officials have 
sought to minimize the problem. In public forums, WASA 
officials describe the EPA action level as a level at which 
water is safe. Further, filters have not been delivered, 
contrary to what Mr. Welsh testified today.
    With regard to the pilot program for replacing some lead 
service lines in the city, WASA has misled residents as to how, 
when, what and the cost to the consumer of the replacement. Now 
WASA won't take telephone calls from residents seeking 
clarification or more information. This legislation establishes 
baselines for public education about the risk posed by lead 
contamination. Further, it sets out a protocol for lead line 
replacement, clearly marking each participant's role and their 
responsibilities.
    Finally, the problem is not entirely with the water 
agencies because lead free doesn't really mean lead free. When 
defending their actions, WASA officials blamed excess levels on 
home plumbing fixtures. WASA may actually have a point. 
Currently the Safe Drinking Water Act defines lead free as 8 
percent lead. This legislation would define lead free as 0.2 
percent and going forward, it would be unlawful to install 
plumbing fixtures and components with lead levels higher than 
that in any residence. Again, it is a relatively costly 
solution. I remind them that the goal of U.S. public health 
agencies since at least the 1980's has been zero exposure to 
lead and I ask them, why not take action to address the source 
of the problem?
    Some might think this is a D.C. problem and one that does 
not affect their constituents and their families. I ask them, 
has your local water agency tested your water lately? Has the 
EPA let them nullify results? How old is your city's 
infrastructure? What are your water service lines made of? In 
the interest of all of our children, shouldn't we know the 
answers to these questions?
    Some say the answers cost too much and are too burdensome 
on water agencies, but as I have demonstrated here, it really 
isn't that expensive. When experts do cost benefit analyses, 
they certainly don't include their children on the cost side of 
the equation. Further, D.C. consumers, rich and poor, are 
spending lots of money on bottled water, filters and pitchers 
and more importantly, I ask them, what monetary value do they 
place on the mental development of a fetus and a growing child? 
What is the long term cost of children with learning 
disabilities and young adults with schizophrenia?
    I urge you to pass this legislation so that 1 day in your 
district, you don't have to face the mother of a child who is 
developmentally delayed because of lead exposure and have to 
say to her, I am sorry, I could have fixed the problem when I 
had a chance but I thought it cost too much.
    Thank you.
    [The prepared statement of Ms. Funk follows:]

    [GRAPHIC] [TIFF OMITTED] T6089.100
    
    [GRAPHIC] [TIFF OMITTED] T6089.101
    
    [GRAPHIC] [TIFF OMITTED] T6089.102
    
    Chairman Tom Davis. Thank all of you very much.
    We don't have closure on this with the panel. We have some 
different opinions but I want to just explore a few. Ms. Funk, 
let me start with you. Do you know what your water bill is at 
this point?
    Ms. Funk. Interesting that you would ask because we just 
received our water bill 2 days ago and it is about $25 a month.
    Chairman Tom Davis. I know out in my district, I go in to 
buy a case of water and water is almost as expensive as 
gasoline and people pay for this stuff and yet if you had a 
good water system, I guess the ultimate question is how much 
more are you willing to pay to get water out of the tap and 
have to go and pay more for gasoline when you buy it at the 
store? That is kind of an inquiry but the answer is I think 
people are buying water that is bottled not just for 
convenience but because they think it is in some way safe. If 
they could pay more at the tap and get that clean water, would 
they save a lot of money?
    Ms. Funk. For example, a case of water at the local grocery 
store costs $7. You figure you buy two or three cases a month, 
that is another $21. In addition, there is the cost of the 
Brita filters that we use in the pitcher in our refrigerator so 
that we can use clean water to cook with. Further, we have a 
water filter on our kitchen tap that costs $35 and each 
replacement cartridge I think is another $15.
    Chairman Tom Davis. Just for the record, the water that you 
are drinking there, we bought that water but the ice, I think, 
is regular ice.
    Mr. Schwartz, did you want to say anything on that?
    Mr. Schwartz. I just wanted to say that many low income 
D.C. residents are currently spending lots of money on bottled 
water and many residents continue to do things like boil their 
water with the notion that is what it takes to make their water 
safe.
    Chairman Tom Davis. That doesn't do anything for lead, does 
it?
    Mr. Schwartz. It makes the lead problem worse. I think what 
we are facing is maybe a little bit of an untenable position. 
It is not that cost doesn't matter, cost does matter and there 
are certainly not unlimited funds. The question is a question 
of priorities. I think we heard that from other panelists.
    Chairman Tom Davis. Let me ask this. I guess this is a 
fundamental question. The tape within a residence and the line 
leading from the main line to the residence, whose line is 
that, who should be responsible because, if that is lead, is 
that the city's problem or is that the individual's problem? I 
guess I would ask all of you how you view that because if you 
change all the public lines but the lines leading up to the 
house are still bad, you still have a problem. Who wants to 
start?
    Ms. Funk. Currently, Mr. Chairman, the EPA regulations 
require the water utilities to be placed at the lead service 
line on public property. On Capital Hill, most public property 
starts at the edge of a homeowner's house which leaves the 
homeowner with several inches of lead line to replace. As 
Delegate Norton pointed out, the connection of a non-lead 
service line to a lead service line actually might exacerbate 
the problem because of some scientific reaction that I probably 
learned about in high school but couldn't tell you about now.
    Chairman Tom Davis. We are lawyers, not scientists.
    Ms. Funk. So whose responsibility is it? I would say it is 
the water authority's responsibility. If there is a problem 
with your phone line, the phone company can come in and fix the 
phone line. So if there is a problem with your water line, why 
doesn't the water company fix it?
    Chairman Tom Davis. If it is on your property, they will 
charge you.
    Ms. Funk. Charging is one thing. I am not suggesting that 
you shouldn't bear the cost.
    Chairman Tom Davis. OK. Thanks.
    Mr. Schwartz.
    Mr. Schwartz. One thing I would refer to is the 1993 and 
1996 Washington Post articles that indicate a bit of a 
disagreement between the Federal managers of Washington, D.C. 
and the residents over the installation of the lead service 
lines here in D.C. originally. Those lines were in large part 
installed over the objections of the population who were living 
here at the time. We think there is a special Federal 
responsibility in D.C. because of that decision to mitigate the 
financial cost to the population here.
    In addition to that, to get more to the point of your 
question nationally, I think it is worse than doing nothing to 
only do partial service line replacement. We really need to, as 
the bill says, do full service line replacement and we need to 
figure out the right funding mechanisms. I am not sure what all 
those are but they include for those who are unable to pay and 
for those systems that have stress, some support nationally so 
that we meet public health needs. That is what this law is 
about, meeting public health goals. We need to meet those 
goals.
    Chairman Tom Davis. Let me ask the other panelists what you 
think in terms of the private plumbing. What should be the 
States' burden in that vis-a-vis the homeowners. Ms. Funk said 
we could facilitate it, at least, make it available to come in 
and maybe do the bills. Mr. Schwartz takes a larger view, 
particularly for D.C. given the history of this that it is a 
State responsibility, State meaning government. What are your 
thoughts on that? I would ask each of you.
    Mr. Rubin. Legally, I think the utilities' property and 
responsibility ends at the end of the public right of way. In 
the District there might not be that much land between the end 
of the public right of way and the home. When you get into 
other communities, you might be talking several hundred feet 
and it is a large part of the expense and certainly a very high 
percentage of the service line is owned by the customer and not 
by the utility.
    Part of that problem which makes it even worse is the whole 
landlord/tenant problem. If the landlord is paying the water 
bill and owns the service line and is responsible for the 
service line but isn't the one who is drinking the water or 
going out and buying bottled water or filters to replace it, is 
the landlord really going to incur that expense, especially if 
there is rent control or some other way he can't pass that cost 
along to the tenant.
    Chairman Tom Davis. Not if he can help it, right?
    Mr. Schwartz. Yes. I think that is going to be a very 
difficult problem. So there is the legal side of it which says 
once the public right of way ends, it is the customer's 
property and the customer's responsibility, but the policy 
implications of that I think, especially with landlord/tenant 
issues, are very difficult.
    Chairman Tom Davis. We face that with a lot of different 
utilities but, in point of fact, in this case, if you don't do 
the last 20 feet, 100 feet or 200 feet, you really don't solve 
the problem.
    Mr. Schwartz. That is true.
    Chairman Tom Davis. Whatever the expenditure is on 
everything else.
    Mr. Schwartz. Yes, we are facing the same kind of problem 
in the nature gas industry where they are finding certain types 
of old pipes that were installed that are prone to leaks and 
ultimately explosions but the gas utility only controls a small 
portion of that line and gas utilities around the country are 
fighting with the same problem, can they require homeowners to 
replace the line?
    Chairman Tom Davis. I guess one difference here is WASA is 
a governmental organization and gas lines are private. There is 
a different privity. Ms. Logomasini, do you have any thoughts 
on that?
    Ms. Logomasini. Yes. I think this highlights the point I 
have been making all along, that it is a question of who is 
responsible. It is not clear that this can be solved in 
Washington. Every community may have a different answer. 
Because utilities are responsible for water as it comes out of 
the tap, even though they don't own all the lines, they are in 
a difficult situation and it may be that in each locality, the 
decisions are going to be different, it is going to be 
negotiated and some may cover part of the costs and in some 
cases, if costs are passed on to homeowners, maybe homeowners 
should be given opportunities to find other solutions because 
this isn't a few inches of line, this could be a dramatic 
disruption in their lives, there could be problems at the tap 
as well. So maybe what they need to be able to do is make 
priority judgments as to whether or not filters would be more 
efficient or whatnot, but it is not going to be an easy answer 
from Washington. There has to be some flexibility.
    Chairman Tom Davis. It would be a huge unfunded mandate for 
Congress to say this to water authorities across the country. I 
think Mr. Schwartz's comment is that in D.C., particularly 
going back to the 1890's when a lot of this stuff was 
installed, there really was a dispute over who was going to 
take it, is that fair to say? Not to bind you but I think you 
said, whatever you feel about nationally mandating this, the 
District has a peculiar situation that may indeed set it apart 
however you agree with the other part?
    Mr. Schwartz. I think the bill addresses a suite of 
solutions to deal with lead problems and lead service line 
replacement is one of the lead elimination solutions in the 
bill and the bill seeks to remove the cause of the problem. The 
bill is not proscriptive and it is looking at giving the EPA 
lots of flexibility in coming to terms with this problem. I 
think the important thing is to recognize that the communities 
that are on a short watch list on lead because they have been 
at, near or one point per billion under the action level like 
New York City or Newark, NJ, or Massachusetts Water Resources 
Authority where Boston is, problems in St. Paul, Bangor, 
Madison, these are very similar to Washington, D.C. in terms of 
the configuration of the communities.
    I think we also have to look at the organic reality of 
where the lead service line problem is and we need to find out 
more about that and we need to find out more about that in the 
District as well. I don't think we even have an accurate 
picture here yet. So, yes, there is a particular situation for 
the District, I agree with that, but I also think there is a 
national point to be taken here.
    Chairman Tom Davis. Mr. Neukrug.
    Mr. Neukrug. Thank you.
    There are so many different issues here and so many 
different ways to answer this question. There are issues of 
ownership and who owns what, responsibility beyond ownership, 
location, where are these lead service lines, and finally, does 
it solve the problem? When you replace a lead service line, 
does that now mean the citizens are going to start drinking the 
water and not boil the water, not use the filters, or are those 
cost issues still going to persist? I am not really sure if 
that solves the problem.
    One other point is that we have been very successful in 
removing the introduction of new leaded materials into society, 
whether it be lead paint, leaded gasoline, lead solder, lead 
pipe or fixtures. Removing any of those from our environment 
has proven to be very difficult and it is interesting that this 
discussion and a lot of the discussion in D.C. lately revolves 
around the lead pipe versus issues of lead solder, issues of 
the fixtures, issues of the paint and all these things need to 
be considered together.
    Chairman Tom Davis. We addressed the solder issue in the 
last hearing giving the chemicals that are coming in and out 
and the effects, but I understand.
    Let me ask one other question to anybody who may know 
anything about this, I asked the EPA about the situation in the 
city of Cincinnati where it replaced all of its lead service 
lines at enormous cost but, from what I have read, it didn't 
significantly reduce the levels of lead in the water. Does 
anybody know anything about this? Tell us about the wholesale 
replacement or maybe they didn't do the last 20 feet. Obviously 
it is a whole host of issues that could cause levels to spike 
and rise and fall. Does anyone know anything about Cincinnati?
    Mr. Neukrug. We will be glad to find out.
    Chairman Tom Davis. We would be happy if you have those 
resources. Thank you for being here and I am going to recognize 
Ms. Norton.
    Ms. Norton. I want to thank all of today's witnesses. It is 
important to hear from all of those concerns and trying to 
figure out how to proceed.
    Mr. Chairman, I would like to submit for the record the 
testimony of a resident of the District of Columbia who like 
Ms. Funk, was kind enough to invite public officials to his 
home, to take that kind of initiative in order to be heard and 
to tell us what he thought should be done, Robert Vinson 
Brannum, he is here today. I ask that it be submitted for the 
record.
    Chairman Tom Davis. Without objection, so ordered. It will 
be made a part of the record.
    Ms. Norton. Thank you very much, Mr. Chairman.
    We were just discussing the complicated issue of who pays 
for replacement. Not withstanding my bill, I want to understand 
that to be a central question. As indicated in my opening 
remarks, we tried to write a bill based on what needs to be 
done when you get down to brass tacks, then you do what you can 
do. By the way, Ms. Logomasini, there is something that could 
be done in Washington and something that I am pleased this 
Congress has continued to do. I don't know if it fits here but 
one thing we could do is provide a tax credit to homeowners who 
indeed proceeded on lead line replacement.
    I would like to know if we might reach in this set of 
witnesses, all of whom have given valuable testimony in good 
faith albeit from perhaps different perspectives but all I 
think have agreed that lead in the water is not what anybody 
here thinks needs to happen in this country and may have to 
decide how much you can afford. Ms. Logomasini talked about 
tradeoffs. Life is about tradeoffs, so you teach a child from 
the child is the time of Ms. Funk's baby about tradeoffs. There 
is no question about that. But life is also about priorities. 
One way to decide the issue of priorities of tradeoffs is to 
decide what is really important to you.
    I would like to look at where all the witnesses stand on a 
set of very narrowly focused questions, recognizing that we 
would have vast array of answers on various aspects, for 
example, of our bill or of any regulatory approach. As to 
mothers, the one thing I think there is agreement about is if 
you live to get as old as I am, you ought to take your lead to 
the grave with you and don't worry about it. The public health 
folks still say zero but you don't see me clamoring. We have 
Ms. Funk here and you have heard directly from someone who has 
gone through the D.C. experience. Could we agree that at the 
very least there ought to be a clear warning to every person in 
a given jurisdiction who may be affected following testing on 
the assumption that at least some of those residents will be 
people like Ms. Funk who are pregnant, who are nursing and/or 
who have small children on the question alone of notice I am 
asking. I am not even getting to the question of what you ought 
to do for Ms. Funk or people like her. On the question of 
letting people like Ms. Funk or any other resident who may in 
fact be affected, regardless of what normal realities force us 
to do with respect to remediation, can we agree that everybody 
who may be affected with lead in the water should have notice 
on the assumption that they are more like Ms. Funk out there? 
Can we get agreement on the panel on that baseline?
    Chairman Tom Davis. Let us go down the line.
    Mr. Neukrug. I agree with you, Ms. Norton, and I think the 
only thing I disagree on is that you seem to limit it to a 
certain geographic area and I think it is a worldwide, 
nationwide issue, exposure, prenatal care, exposure to lead in 
drinking water.
    Ms. Norton. I am talking about following testing. Let me be 
clear. You testified about an education campaign. I am talking 
about following testing, I am talking about the 10 percent 
rule, I am talking about when you have to remediate and when 
not and action levels. I am putting all that aside for the 
moment.
    Mr. Neukrug. I would agree with you there.
    Chairman Tom Davis. If you find bad results.
    Mr. Neukrug. If you find bad results, you report it.
    Ms. Logomasini. There is notice required now and I think 
the question is how quickly.
    Ms. Norton. There is not notice required of everybody who 
is affected and that is why I asked this question.
    Ms. Logomasini. If there is a public health issue that is 
imminent and a serious threat, absolutely people should know 
but I think there needs to be some flexibility in communities 
to make judgment calls as to when there is a serious health 
threat and when there is something that is not as serious and 
doesn't require immediate action. Sometimes there is time 
necessary to collect information to make sure that you are 
providing the right information. I think there is a lot built 
into the system that encourages people to sound alarms and then 
we get overreactions and people get scared and maybe the 
response is not appropriate. I also think the way the law is 
working now, and this is a conclusion I have been coming to 
listening earlier today, that maybe we are not getting the 
proper notice because communities are afraid of the 
repercussions on the regulatory front. They don't have 
flexibility in how they are going to handle it, so maybe they 
are going to try to not do it as quickly. So we do have a flaw 
there. People need to get good information and they need to get 
it in a timely fashion.
    In a private system, you would have competing companies and 
that would provide some regulation in the private fashion. We 
don't have that here. We have a political system and we have a 
lot of bad incentives.
    Ms. Norton. We have a lot of competition for people.
    Chairman Tom Davis. Ms. Logomasini, can you give a yes or 
no to this?
    Ms. Logomasini. I think it should be determined more 
locally. I don't think you need to pass a Federal law to do 
that.
    Chairman Tom Davis. How about conceptually? Conceptually 
would you agree it ought to be done?
    Mr. Rubin. The simple answer is yes, absolutely and the key 
is notice that is effective and understandable which usually is 
not the case now.
    Chairman Tom Davis. Yes, it gets buried.
    Mr. Schwartz.
    Mr. Schwartz. My answer is yes and I would just note that 
if WASA hadn't been trying to gain the actual replacement of 
lead service lines and so did a bigger sample, we never would 
have found out the true extent of the problem. When you look at 
cities like Boston who only have a 25 household sample per 
year, it raises the question whether we really know what is 
going on out there. I think we really have to take a hard look 
at the information the agency has. I don't think the rule is 
providing the right context to even get to the point of public 
notification because I don't think we know what is going on, 
positive or negative.
    Chairman Tom Davis. Ms. Funk, you have already spoken to 
this, but in answer?
    Ms. Funk. I would say of course and as to whether or not 
notification that the lead in your water might be too high, 
might cause panic, I find that an outrageous, pedantic 
statement. Parents every day are called on to make health 
decisions on the part of their children. This Congress passes 
laws about parental notification. I think parents are equipped 
to make an informed decision when it comes to their child's 
health.
    Chairman Tom Davis. Thank you.
    Ms. Norton. I really do think in good faith all of us 
really do believe that and I understand the question the notice 
may trigger cost, notice may trigger, but I want to separate 
the question of notice because that is low cost. I want to 
concede Ms. Logomasini's point that once you get to what to do, 
there may well be different strokes for different folks. That 
is why I confine myself to the notion of those 10 percent, none 
of whom may know which doesn't seem to me to be very American 
way to approach things. Most people, whether free market people 
or whatever, want everybody to know so they can then decide 
what to do. I think that is the whole notion, frankly, of the 
market system.
    Let me ask you another question designed to get agreement, 
if I can get it. Since the population that appears to be at 
risk, perhaps not but appears to be at risk, is the youngest 
population, children now go to be educated beginning at 3 years 
old because they go to day care centers and to elementary 
schools and the rest, do you think it makes sense to say to 
every community you have to decide how to do this but every 
water supply, normally a water fountain of some kind used by 
children should be tested once a year? I say once a year, I 
pulled that out of the hat. I don't know if the scientifically 
appropriate way would be less or more, I am simply saying you 
can count, when I put this child in school, they are going to 
look on a frequent and regular basis to see whether there is 
lead in the water? Could I go down the line on that one, 
please?
    Chairman Tom Davis. Can I dovetail on that? Let me ask 
this. There is obviously a cost-benefit to doing that kind of 
thing with school water fountains. Do you really get any bang 
for the buck by factoring any consumption from school water 
fountains?
    Mr. Neukrug. I think it is important to understand that. I 
think there are other ways of doing it than once a year. I 
think the original Safe Drinking Water Act addressed it by the 
type of water fountain, whether that had lead parts exposed in 
it. I think in general, yes, you should have a very good idea 
for every water fountain, particularly in a school, whether or 
not there is lead.
    Just one quick anecdote is that my son is at Philadelphia 
public school and he doesn't have water. That is the solution.
    Chairman Tom Davis. It is a solution sometimes.
    Mr. Neukrug. The priority is no lead in the water but the 
priority is other things, books and other things, rather than 
providing water.
    Ms. Norton. What does he do if he gets thirsty in the 
middle of the day? I understand that solution.
    Mr. Neukrug. Bottled water.
    Ms. Norton. So your child has to bring it to school?
    Mr. Neukrug. Yes.
    Ms. Norton. He's in a public school?
    Mr. Neukrug. Yes, and just for the record, since I was 
sworn in, he is now in a private school in fourth grade, but 
yes, in kindergarten to third grade, he brought in water every 
day.
    Ms. Logomasini. I am not sure in every case that would make 
sense. Again, the cost benefit angle is important here. If the 
school doesn't have lead lines and low risk, they have to be 
able to decide, the community needs to decide do we want to 
spend our money here, do we want to spend it somewhere else. 
There may be an asthma problem in that school and they may need 
to test for that. It may be a more imminent threat.
    Ms. Norton. So we said if it had lead lines you should?
    Ms. Logomasini. I am not sure. Again, they may decide to go 
with a filtration system instead.
    Ms. Norton. I have asked a very particular question. I work 
in the Congress where Tom Davis and I have to get agreement if 
we want to get a bill or if I want to get a bill, you are not 
going to change my question now. I am saying because I accept 
your amendment, if in fact your school because it is very 
expensive to change lead service lines and there may not be a 
problem because there may be no corrosion, I am asking whether 
or not the once a year testing of the fountains in those 
schools where the fountains are attached to lead service lines 
would be an appropriate thing to do?
    Ms. Logomasini. I am saying that I don't think the Federal 
Government should make that determination. I am saying that 
needs to be a school by school, community by community 
decision. They need to look at all of their concerns.
    Chairman Tom Davis. Fine. Thank you.
    Mr. Rubin.
    Mr. Rubin. Simple answer, yes. I don't know if 1 year is 
right, probably focused on elementary schools and day care 
centers but sure, we ought to know what is going on.
    Mr. Schwartz. I think we need to have a serious review with 
detailed auditing by the EPA of the implementation of the Lead 
Contamination Control Act to see if the provisions there have 
been fully implemented and if we have had real reductions in 
lead that is available in schools and if reductions have been 
made and to what extent. That will help us figure out the 
answer about what the nature and extent of the problem is.
    I want to amend one other thing. I think it is important to 
know that kids are certainly at risk, pregnant mothers and 
nursing mothers but there are several other vulnerable 
populations who are really at risk for lead exposure including 
frail elderly and other people with weakened immune systems. I 
just don't want to minimize that lead can be a problem for 
people at all stages of their lives.
    Chairman Tom Davis. Ms. Funk.
    Ms. Funk. I would suggest if a school or day care center 
could show they don't have a lead service line and then their 
plumbing fixtures have lead in them, then perhaps instead of 
testing every year, they could be absolved from testing unless 
there was some sort of community issue that had been raised. 
If, however, a day care center or school can't show that it 
doesn't have a lead service line or that all of its plumbing 
fixtures do not contain lead, then I would suggest those 
centers and schools be tested regularly.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. We have enough problems, Ms. Funk will attest, 
trying to encourage parents to trust our public schools not to 
add lead service lines to the mix.
    The chairman certainly doesn't want to miss the Tyson's 
Corner Lion's Club engagement he has now, so I have asked him 
for one question only and he has been extremely generous. The 
last thing I am going to do is try to take advantage of it 
because I have only one more questions for all of you.
    I am concerned with nullifying results. I would like to 
talk to you afterwards about the whole notion of nullifying 
results. We are trying to restore confidence in our water 
supply, we are trying to get people to move to the District of 
Columbia. When they hear you can nullify the results and say 
can I just change this, that is a concern of mine.
    Partial replacement, the way in which the EPA operates has 
been called in serious question. A small number of samples, 50 
samples, for a 600,000 person jurisdiction, all of which leads 
me to ask the EPA, WASA and everyone, just kind of begin again. 
Why not and just look at it again through rulemaking because 
whatever you do is going to be what it is after you receive 
comment.
    I do want to ask one more question again. I am a consensus 
person particularly when it comes to legislation. This has 
nothing to do with the public expense, this has to do with how 
our market system operates. You can sell pipe to WASA and to 
homeowners that says lead free and it can contain as much as 8 
percent lead. Should lead free in fact at least be close to 
lead free before it is sold to public works in Philadelphia and 
Fairfax, D.C. and to homeowners across the country? Final 
question, down the line.
    Mr. Neukrug. Theoretically, I absolutely agree. I don't 
really know how far down you can get to lead free and still 
have a good plumbing product.
    Ms. Norton. I should say as practicable. I am not even 
assuming zero.
    Mr. Neukrug. Absolutely.
    Ms. Logomasini. Maybe this is a fraud or legal issue for 
the Federal Trade Commission. Maybe they need to have a 
different term because it does sound misleading when you say 
lead free.
    Mr. Rubin. I don't know. I think the real problem is with 
plumbing fixtures more than with pipe and I don't know what you 
need in order to make plumbing fixtures the way people want to 
buy them.
    Ms. Norton. Perhaps you want to buy something that has 8 
percent. Perhaps it is cheaper. I don't know. I am only going 
to the question like my first question, if you are looking 
after the D.C. water crisis for equipment that has no lead in 
it, should lead free mean as much as 8 percent lead?
    Mr. Rubin. Congresswoman, one concern I have is we don't 
know what impact if any that would have on public health.
    Ms. Norton. We don't but we know this much. I think I am 
buying a lead free product and that is my only question.
    Mr. Rubin. And I am saying I don't know the answer to that. 
If the scientific studies say if you have less than some 
threshold level of lead, effectively it is lead free because 
the lead is never going to come out of there and if you want us 
to reduce it from 8 percent to 0.2 percent, that is going to 
triple the cost, then we have to be concerned about that. I 
don't know.
    Ms. Norton. My understanding is that no scientific study 
would say that lead free means as much as 8 percent. I would 
agree with you. If in fact, there is a study that says lead 
free can mean as much as 8 percent, I absolutely agree with 
you, then to use that would be scientifically valid.
    Mr. Schwartz. Your question is right on. California and 
many water systems now require nearly zero lead and I think we 
ought to take a look at their experience which was prompted by 
Proposition 65, the Safe Drinking Water and Toxics Act that 
passed in California many years ago. We would think this is 
probably one issue that most witnesses could agree on. We have 
experience. We should take a look at the experience that has 
been operating out there. If it works for 10 percent of the 
population in California, it might work out here.
    Ms. Funk. The FTC has something called truth in labeling 
and I think this squarely falls under it. If it says lead free, 
then it should be as close as lead free as you can get; 8 
percent is not lead free, so 8 percent shouldn't say lead free, 
8 percent should say 8 percent lead.
    Ms. Norton. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. I appreciate this panel for a very 
lively discussion on this. We appreciate it. We will leave the 
record open for 10 days if anyone has any additional thoughts 
you would like to incorporate, Members' statements and the 
like.
    The hearing is adjourned.
    [Note.--Additional information is on file with the 
committee.]
    [Whereupon, at 12:51 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Henry A. Waxman and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T6089.108

[GRAPHIC] [TIFF OMITTED] T6089.109

[GRAPHIC] [TIFF OMITTED] T6089.110

[GRAPHIC] [TIFF OMITTED] T6089.111

[GRAPHIC] [TIFF OMITTED] T6089.112

[GRAPHIC] [TIFF OMITTED] T6089.113

[GRAPHIC] [TIFF OMITTED] T6089.114

[GRAPHIC] [TIFF OMITTED] T6089.115

[GRAPHIC] [TIFF OMITTED] T6089.103

[GRAPHIC] [TIFF OMITTED] T6089.104

[GRAPHIC] [TIFF OMITTED] T6089.105

[GRAPHIC] [TIFF OMITTED] T6089.106

[GRAPHIC] [TIFF OMITTED] T6089.107

                                 <all>

</pre></body></html>
